<html>
<title> - BALANCING MILITARY ASSISTANCE AND SUPPORT FOR HUMAN RIGHTS IN CENTRAL ASIA</title>
<body><pre>[Senate Hearing 107-750]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-750
 
 BALANCING MILITARY ASSISTANCE AND SUPPORT FOR HUMAN RIGHTS IN CENTRAL 
                                  ASIA
=======================================================================


                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON CENTRAL ASIA
                           AND SOUTH CAUCASUS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 27, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                          U.S. GOVERNMENT PRINTING OFFICE
82-602                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                      SUBCOMMITTEE ON CENTRAL ASIA
                           AND SOUTH CAUCASUS

               ROBERT G. TORRICELLI, New Jersey, Chairman
JOSEPH R. BIDEN, Jr., Delaware       RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
PAUL D. WELLSTONE, Minnesota         GORDON H. SMITH, Oregon
BARBARA BOXER, California            SAM BROWNBACK, Kansas

                                  (ii)

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, statement 
  submitted for the record.......................................    51
Courtney, Hon. William H., former U.S. Ambassador to Kazakhstan 
  and Georgia, former Senior Advisor to the National Security 
  Council, senior vice president, National Security Programs, 
  Dyncorp, Washington, DC........................................    29
    Prepared statement...........................................    32
Craner, Hon. Lorne W., Assistant Secretary of State for 
  Democracy, Human Rights and Labor Bureau, Department of State, 
  Washington, DC.................................................     7
    Prepared statement...........................................    10
    Responses to additional questions from Senator Torricelli....    52
    Responses to additional questions from Senator Gordon Smith..53, 57
    Response to an additional question from Senator Brownback....58, 59
Crouch, Hon. J.D. II, Assistant Secretary of Defense for 
  International Security Policy, Office of the Secretary of 
  Defense, Department of Defense, Washington, DC.................    15
    Prepared statement...........................................    18
Kazhegeldin, Akezhan, former Primer Minister of Kazakhstan, 
  letter to Senator Barbara Boxer regarding concerns about civil 
  rights.........................................................     4
Olcott, Martha Brill, senior associate, Carnegie Endowment for 
  International Peace, Washington, DC............................    36
    Prepared statement...........................................    38
Pascoe, B. Lynn, Deputy Assistant Secretary of State for European 
  and Eurasian Affairs, Department of State, Washington, DC......    21
    Prepared statement...........................................    22
    Responses to additional questions from Senator Gordon Smith..54, 57
    Response to an additional question from Senator Brownback....58, 59

                                 (iii)










                   BALANCING MILITARY ASSISTANCE AND

                       SUPPORT FOR HUMAN RIGHTS

                            IN CENTRAL ASIA

                              ----------                              


                        THURSDAY, JUNE 27, 2002

                           U.S. Senate,    
               Subcommittee on Central Asia
                                and South Caucasus,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert G. 
Torricelli (chairman of the subcommittee), presiding.
    Present: Senators Torricelli, Lugar, and Brownback.
    Senator Torricelli. The subcommittee will please come to 
order. I am pleased today to convene this hearing to consider 
United States policy in one of the most vital regions of the 
world. Since the Subcommittee on Central Asia and South 
Caucasus was created last August, the region it covers 
unexpectedly has taken on a role at the very center of our 
Nation's foreign policy. Five central Asian nations are now key 
partners in our diplomatic and military campaign to destroy 
global terrorist networks. These partnerships offer the 
prospect of deepening security and economic ties which will 
benefit all nations involved. At the same time there are 
potential dangers which must be addressed.
    Prior to September 11, United States policy in the region 
was largely focused on promoting democratic reform, increasing 
respect for human rights and encouraging economic growth. Many 
observers of the region now believe that that agenda is in 
jeopardy, and are concerned that the United States will hold 
back from promoting democracy and human rights to avoid 
friction with the central Asian leaders. None of us question 
the vital importance of the military actions the United States 
is undertaking in Afghanistan, and the indispensable role that 
central Asian nations have played in supporting our operations.
    I have been a strong supporter of the American military 
campaign currently underway, indeed I went to Afghanistan in 
April to assess its progress and to meet with our Armed Forces. 
But it would be a serious mistake if we were to sacrifice our 
agenda for the promotion of democracy and human rights in 
exchange for security cooperation. Rooting out terrorism, 
promoting democracy and human rights are not mutually 
exclusive. Indeed, they are probably mutually reinforcing.
    Granted, there are regimes that do not allow for full 
democratic participation or are marginalizing or radicalizing 
segments of their population. This not only potentially creates 
new terrorists, but can pose threats to stability of regimes we 
are relying on as security partners.
    As the United States witnessed in 1979 in Iran, and may 
soon see in some other nations, oppressive regimes that do not 
have public support can quickly collapse, and they are likely 
to be replaced by anti-American regimes. I do not suggest that 
any of the central Asian regimes are on the verge of collapse. 
I would prefer to see a democratic evolution in those nations.
    Yet as these nations continue to find their post-Soviet 
identity and develop democratic institutions, it is important 
that people in the region recognize the United States is on 
their side and does not identify itself only with oppressive 
governments. As we engage more deeply with central Asian 
nations, and our security relationship grows, our diplomats 
will have increasing contacts and opportunities to raise human 
rights concerns with our partners.
    It will be important to convey to the political leaders of 
those nations that they need not view our human rights and 
democracy agenda as a threat. Establishing the rule of law, 
more open independent judicial systems and protections for 
citizens is essential for creating a favorable climate for 
foreign investment and tourism.
    Our hearing today is intended to explore the success of 
American policy in simultaneously pursuing both our human 
rights and our security agenda. The balance is not easy; some 
will urge us to emphasize one aspect of our policy over 
another. In the long run, our engagement in central Asia will 
only serve our national interests if it is carried out in 
accordance with American values.
    Today I am pleased to welcome our distinguished panel from 
the State Department and Defense Department. From the State 
Department we will hear Assistant Secretary Lorne Craner, 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor, and from Deputy Assistant Secretary Lynn Pascoe, who is 
responsible for central Asia, in the Bureau of European and 
Eurasian Affairs. Both have been in central Asia very recently 
and met with leaders throughout the region, and we look forward 
to hearing their views.
    From the Defense Department we will hear from Assistant 
Secretary of Defense for International Security Policy J.D. 
Crouch. Secretary Crouch has also been to the region and will 
be able to provide an overview of United States security policy 
in the region.
    We will also have a second panel with the former Ambassador 
to Kazakhstan, William Courtney, and Martha Brill Olcott, from 
the Carnegie Endowment. We look forward to hearing your 
testimony.
    Senator Lugar, would you like to make opening comments.
    Senator Lugar. Thank you very much, Mr. Chairman. I thank 
you for calling this meeting, for summoning two panels of 
excellent witnesses.
    Today we seek to address one of the most difficult policy 
questions in American foreign policy, and that is, how does the 
United States continue to advance its national security 
interest while preserving its commitment to human rights and 
the values we hold so dear.
    During the cold war, U.S. policy required the maintenance 
of the balance wherein we worked closely with nations with a 
different level of commitment to basic human values and 
freedoms. This challenge required a constant call for 
improvements in areas such as freedom of speech, assembly, 
religion, while working closely with governments to stop and 
reverse the spread of communism.
    The current war on terrorism presents a similar challenge. 
The front lines of today's war require relationships with a 
number of culturally diverse countries with histories and 
backgrounds very different than our own. The threats associated 
with terrorism and weapons of mass destruction necessitate 
American engagement and security cooperation, and provision of 
military assistance with countries that would otherwise be 
subjected to a very different policy approach.
    Following the attacks of September 11, Uzbekistan, 
Tajikistan, Turkmenistan, Kyrgyzstan and Kazakhstan burst into 
American living rooms on CNN and nightly news broadcasts, and 
for most Americans, this was the first they ever heard of these 
former Soviet states. Many were surprised to learn of the 
tremendous geostrategic importance these nations held in the 
war against terrorism. Americans quickly understood the 
important role these countries play in providing U.S. and 
coalition members with critical military bases and overflight 
rights. They saw the successful conclusion of military 
operations in Afghanistan depended largely upon our allies in 
that region.
    But there was considerable unease, and people began to dig 
a little deeper into the background of these nations. Concerns 
were expressed about their commitment to democracy and human 
rights, and the poor to very poor to extremely poor grades 
given to the states of central Asia in the State Department's 
annual Country Reports on Human Rights Practice was cause for 
concern.
    This is a challenge of United States policymakers seeking 
to increase cooperation in the fight against terrorism and to 
address the threats posed by weapons of mass destruction. 
Striking the right balance between human rights and security 
cooperation is not a new challenge in central Asia. The United 
States has been working cooperatively with Kazakhstan and 
Uzbekistan in particular for more than a decade in an effort to 
secure and then dismantle the Soviet nuclear, chemical and 
biological legacy.
    Immediately after the states of the former Soviet Union 
declared their independence, the United States began an intense 
diplomatic effort to secure Kazakhstan's residual of nuclear 
weapons and materials. Many forget that Kazakhstan inherited 
the fifth largest nuclear arsenal in the world after the fall 
of the Soviet Union.
    Equally disturbing was the existence of Stepnogorsk, the 
largest anthrax production facility in the world, and 
Semipalatinsk, the Soviet Union's nuclear testing area. 
American experts have also been active in the Aral Sea region, 
off the coast of Uzbekistan, where we discovered a place called 
Voz Island. It was the Soviet Union's main chemical and 
biological weapons testing facility which Ken Allenbach 
described so vividly in his book, ``Biohazard.''
    In the 1990s, the program staff were among our most 
successful emissaries to these new states and laid the 
groundwork for the kind of cooperation that came to light with 
the war in Afghanistan. The United States continues to 
cooperate closely with these countries to eliminate the threats 
these sites pose, not only to international security but to 
local populations.
    The United States and the states of central Asia have 
enjoyed considerable diplomatic success. Kazakhstan's decision 
to join the nonproliferation treaty, along with Ukraine and 
others, as non-nuclear states are one of the great achievements 
of the last decade. Together we must set out with the same 
purpose to achieve equally important gains in the areas of 
human rights and democracy. We can and should build on our 
successes in addressing weapons of mass destruction and 
terrorism, but we must understand that to strengthen these 
binds to a level similar to that which exists with our NATO 
allies requires more than just security and military 
cooperation, it also requires like minded approaches to social 
issues.
    My concern is without progress across the full breadth of 
policy issues, our relationships will hit a glass ceiling in 
the absence of success in broadening the rights and freedoms of 
the people of central Asia. United States involvement with and 
commitment to the states in central Asia has seen tremendous 
growth since my first visit to the region in 1992.
    At that time, newly appointed leaders struggled to come to 
grips with the responsibilities of a civil democracy while 
addressing the specters of their Soviet past. The last decade 
has brought progress. We have a long way to go and I look 
forward to working with the administration, Senator Shelby, our 
chairman, and the leadership of these central Asian states to 
take the next step at deepening the relationship these 
countries have with the United States.
    I thank you, Mr. Chairman.
    Senator Torricelli. Thank you, Senator Lugar. Senator 
Boxer, a member of the subcommittee, could not be here today 
but wanted to express her concern about the human rights 
situation in Kazakhstan. At her request I am going to enter 
into the record, without objection, at this point a letter sent 
to her by the former Prime Minister of Kazakhstan that details 
some of those issues.
    [The letter referred to follows:]

The Honorable Barbara Boxer
United States Senate,
Washington, DC.

    Dear Senator Boxer:

    Let me first thank you and Senators Torricelli and Lugar for your 
concern about the situation regarding human rights and freedom in 
Kazakhstan, and for your leadership in holding a hearing on June 27, 
2002. I want to express my gratitude on behalf of all Kazakh democratic 
parties, members of the Democratic Forces Forum and common citizens of 
my native country.
    On several occasions, I have had the privilege to testify before 
the U.S. Congress' Committees about human rights violations, 
persecution of the media, and reprisals against the democratic movement 
carried out by authoritarian and corrupt President Nazarbayev. When in 
1997 opposition members mentioned them for the first time, the 
credibility of their words was met with great skepticism in the West. 
Today the U.S. and Western European governments, as well as their 
populations are aware of those abuses. The renowned human rights 
organizations and most influential newspapers have been highlighting 
attacks on journalists, politically motivated charges brought against 
opposition members, and the multi-million dollar foreign accounts 
blocked in Swiss banks--including those seized on request of the U.S. 
Justice Department.
    U.S. Congressmen and senior officials in the U.S. Administration 
have also harshly criticized the Nazarbayev policy. There must be 
dozens of resolutions and statements in this regard. There is no need 
for me to attract your attention to those facts; although the situation 
is becoming increasingly grave. The Kazakh people will eventually 
decide their fate themselves and choose such a government that will 
respect human rights and the rule of law. I believe that this will 
happen very soon.
    Let me bring to your attention some aspects related to security and 
stability in central Asia, which, as your hearing indicates, are of 
deep concern not only to us, but also to U.S. We can see this from 
media publications and the Congressional statements. The United States 
has built and led the international coalition against terrorism because 
today your country is the world's leader. At the same time (or, 
perhaps, for this reason), the U.S. has become the main target for 
terrorists. The American political elites--its lawmakers and the 
Administration--have found themselves shouldering a double 
responsibility for security: to their own citizens and to the 
international community.
    In spite of its strength, the U.S. needs allies in their fight. 
Central Asian governments have pledged their support. But can you rely 
on allies who do not share your fundamental values like freedom, 
equality, and justice? Saddam Hussein could be one of the counter-
terrorism coalition foes. Does he radically differ from Turkmenbashi or 
Nazarbayev? Here we see the same authoritarian rule, the desire to 
remain in power indefinitely, family control of the economy, and 
control of the press. And, simultaneously, we see their people living 
in poverty, the two-faced government propaganda, and the terror of 
special services. These presidents-dictators have rewritten their 
nation's constitutions to bear no responsibility for any of their 
actions. In Kazakhstan, for instance, President Nazarbayev has pushed 
through a special law on himself, which he believes to guarantee him 
immunity from persecution for life.
    The allies who need support in the fight against their own citizens 
are not just unreliable. They are dangerous. Just look at Kyrgyzstan. 
People have been holding rallies and demonstrations for months there. 
The authorities shoot at them; several people were killed. At the same 
time, counter-terrorism coalition troops have been stationed in 
Kyrgyzstan. President Akayev seeks to use this fact to convince Kyrgyz 
people that the West supports him and is even ready to defend him. By 
doing so, he has been fueling the anti-American sentiments and protest 
movements against the military base at Manas airport. According to 
media publications, the Kyrgyz government uses foreign economic aid to 
equip special services, in particular, to pay for 300,000 handcuffs.
    With or without the handcuffs, President Akayev's has been rapidly 
losing his grip on power. He most probably will have to step down in an 
attempt to escape responsibility for the murders and the corruption. 
There is a pressing need to urgently support the Kyrgyz opposition in 
order to ensure that a public confidence government, which will replace 
President Akayev, will be friendly towards the U.S. and its western 
allies. Long ago, U.S. Secretary of State Madeleine Albright publicly 
promised to open U.S. printing houses in Almaty and Bishkek, which 
would print independent media outlets.
    Three years have passed. Since then, only in Kazakhstan has the 
President's puppet courts shut down dozens of newspapers. Editorial 
offices of the newspapers ``XXI Vek'' (21st Century) and ``Delovoje 
Obozreniye'' (Business Review) were set on fire. The Propaganda 
Ministry closed down ``Vecherny Atyrau'', many other papers and several 
television channels. However, no printing houses have been established 
thus far and no one is confident that there ever will be. The same goes 
for the Internet providers promised by the Department of State, because 
of the Kazakh government's censoring of the Internet.
    Thus emerged a false alternative: security or democracy. Your 
society has awaked to its internal policy risks. However, this choice 
is equally dangerous in foreign policy. Only democracy can provide 
security. All the regimes that constitute a terrorist threat are 
authoritarian and corrupt. The countries, which sponsor international 
terrorism, resort to terror in their internal policy to crack down on 
their opponents.
    Central Asian presidents do not share democratic values. Moreover, 
they despise the western political system for what they see as a 
weakness. Some of them, like Turkmenbashi, do it openly and blatantly. 
Others prefer lies and hypocrisy. Last December, President Nazarbayev 
signed a joint declaration with President Bush, in which he pledged 
allegiance to democracy, swore to protect independence of the media and 
respect human rights, including the right to political activity. Since 
that time, the situation in Kazakhstan has deteriorated dramatically. 
The authorities have adopted a law that bans all opposition parties 
from participation in the political life. Obviously, they will be 
dissolved.
    I would like to draw your attention to the fate of Mukhtar 
Ablyazov, a former minister who joined the democratic opposition and 
was immediately committed for trial for alleged corruption. The 
authorities have jailed Galymzhan Zhakiyanov. He was a governor for 
five years. In Kazakhstan, governors are appointed directly by 
President Nazarbayev. Nazarbayev is also the person who fires them. The 
moment Zhakiyanov stopped being loyal to the President, he was arrested 
too. Now he awaits trial in a prison hospital. Several days ago, the 
daughter of Lira Baiseitova, a well-known woman-opposition member and 
editor of the shut down newspaper ``Respublika'' (Republic) was killed. 
The police have refused to investigate the case. Lira Baiseitova is 
convinced the crime was committed by the Nazarbayev secret services as 
a vengeance for her activity.
    Killings, beatings, arsons, political trials. What can the United 
States set against all this? Unfortunately, to persuade the dictators 
and make arrangements with them would be most inadequate. The U.S. 
government and dozens of organizations render assistance to the Kazakh 
government, pay to bring the MPs from pro-governmental parties to the 
United States, hold seminars and conferences for the state-sponsored 
NGOs. What are you trying to convince the authoritarianism advocates 
of? They clearly see everything themselves. Stop persuading them, it's 
time to make the central Asian regimes give up their unlimited power. 
The opposition proposed a national-wide dialog to Nazarbayev, which 
could suggest a procedure to step down. In 1999, Nazarbayev assured 
Vice-President Gore in writing that he would commence such a dialog. He 
lied to the U.S. Administration. Make him meet his OSCE commitments and 
fulfill his promises, including those made to the previous 
Administration. The central Asian nations must see that no one can 
easily deceive the government of the world's most powerful state.
    In recent years, I met many senior U.S. officials. I told them of 
my point of view and never came across strong opposition. Everyone see 
that the situation is deteriorating. Foreign investment laws are 
constantly revised; the Nazarbayev family strives to eliminate their 
rivals with the help of their puppet courts; corruption is rampant at 
all levels, including the President himself. At the same time, it's 
widely believed that a favorable investment climate and a stable 
political system could permit Kazakhstan, together with Russia, to play 
a key role in ensuring western energy security.
    Dear Senators, on behalf of the popular democratic movement in 
Kazakhstan, on behalf of the opposition movements in Kyrgyzstan, 
Tajikistan, and Turkmenistan, I urge you to regard our nations, not 
their dictators, as your allies. The developed and democratic 
societies, the legitimate and elected governments will help to secure a 
true stability in the region. They will root out the environment that 
has become a fertile ground for terrorists and extremists.
    Dear Members of the United States Senate, after the September 11 
attacks, everybody has realized that borders that separate countries 
and continents are futile in the face of a terrorist threat. We live in 
the region where this threat is ever present. Afghanistan, Tajikistan, 
Uzbekistan, and Kyrgyzstan are the neighboring states. Each of these 
countries has seen more or less serious fighting; each of them has lost 
people.
    Kazakhstan remains peaceful. It's not, however, because its regime 
is better than those in the neighboring countries, it's because the 
country has got a mature democratic opposition, which unites people not 
under the military banners, but through peaceful meetings and fair 
elections. Our intention is to print newspapers, not leaflets. Our aim 
is a secular and social state. We urge you to assist us in working 
towards this aim, and the world will get a new nation, a new culture.
    Thank you for your time and attention.

            Sincerely,
                                       Akezhan Kazhegeldin.

    Senator Torricelli. I would also like to recognize several 
guests who are with us today. We are very honored and pleased 
to have with us the Ambassador to Uzbekistan, Mr. Khamrakulov; 
the Ambassador to Turkmenistan, Mr. Orazov; and a guest from 
Finland, Mr. Ari Vataner, who is a Member of the European 
Parliament and has been involved in human rights issues in 
Kazakhstan.
    With that, if I could, perhaps we could take in order, Mr. 
Craner, if you would begin, then Mr. Crouch and Mr. Pascoe. 
Please proceed.

STATEMENT OF HON. LORNE W. CRANER, ASSISTANT SECRETARY OF STATE 
  FOR DEMOCRACY, HUMAN RIGHTS AND LABOR BUREAU, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Craner. Thank you. Mr. Chairman, Senator Lugar, thank 
you again for your well-timed invitation to testify on the very 
important question of whether the U.S. Government has the right 
balance between military assistance and human rights in central 
Asia.
    September 11 dramatically changed the focus of U.S. foreign 
policy. We are now engaged in a global struggle against terror 
that requires working in close cooperation with an array of 
governments, some of which have as you mentioned, by our own 
accounts, have poor human rights records and with whom we have 
not had close relations in the past. Some individuals both here 
and abroad have expressed concern that as a result of the 
September 11 attacks on America, the administration has or will 
abandon human rights. This is not the case.
    Indeed, human rights and democracy are as essential today, 
if not more so, than they were before the terrorist attacks on 
America. As Colin Powell has stated, ``freedom fights 
terrorism, instability and conflict.'' Time and again 
experience has shown that countries which demonstrate high 
degrees of respect for human rights are also the most secure 
and most successful. In short, we will not win a war on 
terrorism by diminishing the universal observance of human 
rights. To do so would merely set the stage for a resurgence of 
terror in another generation. In fact, in central Asia, in 
terms of intensity, attention and funding, the region is 
receiving far more attention to human rights than it was before 
the 11th.
    In my remarks I will focus on our efforts to encourage and 
support human rights and democracy in the region. I will be 
very frank about the situation in those countries and I will 
also make clear what progress we have been able to make to date 
in promoting democracy and respect for human rights.
    The proximity of central Asia to Afghanistan has made 
nations in the region particularly vulnerable to terrorist 
activities, and the assistance the central Asian governments 
have rendered to Operation Enduring Freedom has been 
invaluable. Our strong message in turn to the governments and 
their leaders has been that close relations with the United 
States brings with it a heightened level of scrutiny and that 
therefore, any deepening and broadening of our cooperation will 
depend on continual progress in respect to human rights and 
democracy.
    The message has been conveyed on our side by the President, 
by the Secretary of State, and officials on down the line. It 
has been conveyed as a principle, but it is also contingent on 
the defense of individual human rights activists, and in urging 
better human rights and democracy practices.
    I have traveled to the region twice this year as part of 
this effort, most recently earlier this month, where I met with 
government authorities and ordinary citizens. In Uzbekistan the 
human rights record remains very poor. Human rights abuses by 
law enforcement authorities are widespread, including the use 
of torture. Due process is not respected. Arbitrary arrests and 
detentions continue. We also remain very concerned about the 
treatment of observant peaceful Muslims.
    We have used the enhanced cooperation of the war on terror 
to push for dialog for me and our Ambassador and others with 
the government authorities with whom we had little prior 
contact, such as the Interior Minister and Prosecutor General. 
This increased contact has been granted since January. Positive 
steps by Uzbekistan's Government since that time include 
renewing International Committee of the Red Cross access to 
prisoners, including those held in pretrial detention centers; 
the unprecedented punishment with long prison sentences of law 
enforcement officials who are found guilty of torturing several 
prisoners to death; the registration for the first time ever of 
an independent human rights NGO; and this month the issuance by 
authorities or an invitation to the U.N. Special Rapporteur on 
Torture.
    These are important developments. That said, we still have 
a very long road ahead in Uzbekistan. We are therefore 
substantially expanding our support for human rights groups by 
providing them with the space and resources they so badly need 
to carry out their work. My bureau is also funding the creation 
of resource centers for human rights in the area so they can 
meet freely and gain access to computers, the Internet, and 
other needs. We are also providing for further training in how 
to conduct human rights observance and monitoring.
    My bureau will also soon establish a human rights clinical 
program at the Tashkent Law School. Part of this program will 
train students in basic international human rights standards 
and will provide legal consultations to the public on human 
rights matters in cases. This will be the first university 
human rights program in the region.
    In Kyrgyzstan where the government's human rights record is 
poor, we have seen some major disappointment since September 
11, including the tragic events of March when police fired on 
unarmed demonstrators. During this time the state run printing 
press in Bishkek also refused to print two independent 
newspapers and the government had introduced strict controls on 
ownership, import and operation of printing presses by decree.
    We are pleased that Kyrgyz authorities have since taken 
some steps to restore public confidence, but public protests 
continue, with citizens calling for greater accountability and 
transparency in their government.
    To aid citizens to act more effectively at the grass roots 
level, we are supporting a program to provide citizens groups 
with resources and training. Our project will establish a 
nationwide network of regional information centers, each of 
which will provide access to international and local 
independent news, and information on current events, as well as 
information on international law regarding human rights and 
democracy.
    After much urging by the international community, led by 
our Ambassador John O'Keefe, the decrees I mentioned before 
restricting printing equipment has been repealed. Even before 
these events, my Bureau had identified a lack of access to free 
media as a problem in Kyrgyzstan and we decided to address 
directly the problem of independent media being dependent on 
state-controlled infrastructure. We are now in the process of 
establishing an independent printing press in Bishkek that will 
serve independent newspapers and publishers to insure that the 
people of Kyrgyzstan will have access to free and independent 
information. We also have plans to promote the growth of 
democratically oriented political parties in Kyrgyzstan.
    In Kazakhstan the government's human rights record remains 
poor. The government actions since September 11 have been at 
best, mixed. An encouraging development was the formation in 
November of a major new nongovernmental political movement, the 
Democratic Choice in Kazakhstan, and their first national 
meeting in January.
    We're deeply concerned, however, that recent incidents 
suggest an effort to intimidate political opposition leaders 
and the independent media. Founding members of Democratic 
Choice of Kazakhstan were fired from their government jobs and 
Kazak authorities have detained two prominent members of 
Democratic Choice on long-standing corruption charges. These 
actions suggest an effort to intimidate political leaders.
    Of equal concern has been the negative developments in 
freedom of media in Kazakhstan. Newspaper offices have been 
fire bombed, journalists threatened and harassed, and an 
independent TV station has been off the air since its 
transmission tower was vandalized in February. We therefore 
plan to increase U.S. support for political party development 
work in Kazakhstan and are seeking approval for a project to 
support an extensive training program for independent 
journalists in Kazakhstan and elsewhere in the region, to train 
and support journalists to increase coverage of human rights 
issues and expose corruption in the region.
    In Turkmenistan, the human rights record of the government 
remains extremely poor. Government repression of political 
opposition and civil society remains a particular concern, as 
does abuse by law enforcement officials. Freedom of speech and 
the media are severely restricted.
    There are well-known problems that you have been hearing 
about in particular from your constituents concerning religious 
freedom. Under their highly restrictive law on religion, only 
the Russian Orthodox church and Sunni Muslim groups feel free 
to worship. Other groups in past years have had their churches 
torn down and property confiscated.
    Since September 11, there has been only the most minor 
improvements. As elsewhere, promotion of democracy and human 
rights remains an important right of our engagement, and we 
regularly push for changes in Turkmenistan's human rights 
practices. The U.S. Government has expanded its exchange 
program for Turkmen youth, and my Bureau is providing small 
grants to human rights and democracy NGOs. We are also in the 
process of supporting a regional program for all of central 
Asia, particularly Turkmenistan, to provide direct support for 
human rights and democracy activists, independent journalists, 
and NGOs affected by government persecution.
    Finally, about 2 weeks ago the International Helsinki 
Federation for Human Rights, in part with our funding, brought 
together for the first time political and NGO leaders from the 
country in Vienna, and they issued a set of recommendations to 
the United States and other countries about further policy 
inside Turkmenistan.
    In Tajikistan, the government's human rights record remains 
poor. However, 5 years after a protracted and brutal civil war, 
it is taking steps to accommodate the political opposition. 
There are opportunities for freedom of public expression and 
dissent, and political debate is allowed. We've also witnessed 
the establishment of many local NGOs. However, we remain 
concerned about the need for reform of cumbersome election and 
party registration laws, and we will continue to engage with 
the government to bring that into accord with the international 
standards.
    While an independent media in Tajikistan does not yet 
exist, journalists practice self censorship as a way of 
avoiding government harassment. We are disappointed that the 
recently introduced media law does not go far enough in 
protecting freedom of the media.
    Tajikistan will benefit from one of our projects mentioned 
earlier to support an extensive training program for 
independent journalists in all of central Asia. We are also 
planning a human rights program for the entire region that will 
create a network of advocates to address the issues and demands 
of citizens who are currently unable to advocate effectively on 
their own behalf.
    In conclusion, let me once again stress this 
administration's firm belief that our fight against terrorism 
is also a fight for democracy. Finding a proper balance between 
military assistance and support for human rights when engaging 
in a country such as those in central Asia, it need not be a 
question of balancing competing interests, but can as we're 
attempting, be an issue of mutually reinforcing goals. Thank 
you.
    [The prepared statement of Mr. Craner follows:]

  Prepared Statement of Hon. Lorne W. Craner, Assistant Secretary of 
           State for Democracy, Human Rights and Labor Bureau

    Mr. Chairman and Members of the Committee, thank you for your kind 
and well-timed invitation to testify on the very important question of 
whether the U.S. Government has the right balance between military 
assistance and human rights in central Asia. The Committee's interest 
in this question is certainly understandable as the importance of 
universal human rights has been brought sharply into focus by global 
terrorism.
    September 11 dramatically changed the focus of United States 
foreign policy. We are now engaged in a global struggle against terror 
that requires working in close cooperation with an array of 
governments, some of which have, by our own accounts, poor human rights 
records and with whom we have not had close relations in the past. 
However, despite this increased focus on terrorism in our foreign 
policy, these new relationships remain anchored by the solid bedrock in 
our foreign policy, namely, a strong emphasis on promoting democracy 
and human rights.
    Some in the human rights community here and abroad have expressed 
concern that as a result of the September 11 attacks on America, the 
Administration has or will abandon human rights. This is not the case. 
Indeed, human rights and democracy are as essential today, if not more, 
than they were before the terrorist attacks on America. We cannot win a 
war on terrorism by diminishing the universal observance of human 
rights. To do so would be merely to set the stage for a resurgence of 
terrorism in another generation.
    President Bush and Secretary Powell have been unhesitating in their 
support of human rights and democracy throughout the world. In his 
State of the Union Address, President Bush made the point that the 
fight against terrorism is part of a larger struggle for democracy:

          America will lead by defending liberty and justice because 
        they are right and true and unchanging for all people 
        everywhere. No nation owns these aspirations, and no nation is 
        exempt from them. We have no intention of imposing our culture. 
        But America will always stand firm for the non-negotiable 
        demands of human dignity: the rule of law, limits on the power 
        of the state, respect for women, private property, free speech, 
        equal justice and religious tolerance.

Secretary Powell has been equally adamant in calling on our new 
partners to respect human rights and democracy. At the release of our 
annual Human Rights Report he said:

          The United States welcomes the help of any country or party 
        that is genuinely prepared to work with us to eradicate 
        terrorism. At the same time, we will not relax our commitment 
        to advancing the cause of human rights and democracy. For a 
        world in which men and women of every continent, culture and 
        creed, of every race, religion and region, can exercise their 
        fundamental freedoms is a world in which terrorism cannot 
        thrive.

    But I think it is fair to say that the U.S. commitment to human 
rights and democracy has become a bipartisan tradition that reflects 
not only U.S. values, but also 50 years of international acceptance and 
support for the universality of human rights. That is why I welcome 
this opportunity to testify before you today, and I look forward to 
continuing to work with this Committee to promote human rights and 
democracy in this region.
    Specifically with regard to central Asia, I will focus my remarks 
on our efforts to encourage and support human rights and democracy in 
the region. I will he frank about the situation in those countries but 
will make clear what progress we have made in promoting democracy and 
respect for human rights. For details on military assistance and 
bilateral relations, I will defer to my colleagues, Assistant Secretary 
of Defense for International Security Crouch and Deputy Assistant 
Secretary of State for European Affairs Pascoe.
    In the case of the five central Asian republics, the assistance the 
governments of these countries have rendered to Operation Enduring 
Freedom has been invaluable. Promoting democracy and human rights is 
even more important, for these countries are frontline states in the 
struggle against terrorism. Their proximity to Afghanistan and their 
own tragic experiences with indigenous terrorism make them particularly 
vulnerable to future terrorist activities. There is a firm consensus 
among all U.S. decision-makers that a broadening of cooperation will 
only be possible if these same governments undergo political reforms 
that will allow the emergence of democratic institutions, without which 
there can be no lasting stability in the region.
    Promoting religious freedom in central Asia has also become one of 
our most difficult tasks given the sensitivities of the issue in the 
post 9/11 context of a war against terrorism. Many non-Orthodox 
Christians and especially Muslims find themselves the object of 
repressive legislation, or of prison sentences. We continue to make it 
clear in our discussions with each country and its citizens that even 
though the U.S. was attacked by Islamic extremists, we are not in a war 
against Islam. We still believe the best approach is to permit all non-
violent, unregistered religious groups to exist without government 
interference. We believe government repression of its observant Muslim 
believers, as if they were all violent extremists, will bring about 
that very state which the government seeks to avoid.
    As they celebrate their tenth anniversary of independence, the 
central Asian republics of the former Soviet Union continue to present 
some of the greatest challenges to U.S. efforts to enhance stability in 
the region, which can only be achieved through democracy and respect 
for human rights.
                          enhanced engagement
    Our approach to these overwhelming challenges has been to enhance 
engagement with the governments and societies of central Asia. As Dr. 
Condoleezza Rice said only a week after the horrific September 11 
attacks, ``Civil liberties matter to this President very much, and our 
values matter to us abroad. We are not going to stop talking about the 
things that matter to us, human rights, [and] religious freedom . . . 
We're going to continue to press those things; we would not be America 
if we did not.''
    Even while we ramp up our military cooperation with governments 
that have troubling human rights records, we also see this as an 
opportunity to enhance our engagement and impact on issues of democracy 
and human rights. Our firm message to the governments and their leaders 
has been that closer relations with the United States brings with it a 
heightened level of scrutiny and that, therefore, any deepening and 
broadening of our cooperation will depend on continual progress in 
respecting human rights and democracy. Our policy of enhanced 
engagement has taken many forms. However, as my colleagues will testify 
about their activities, the message from all of us has been 
consistent--democratic states that respect the human rights of their 
citizens are anchors of stability and motors of prosperity. Therefore, 
the governments of central Asia must keep moving down the path to 
greater democratization. At every level, from President Bush on down, 
we have taken every opportunity to express this message when meeting 
with senior government officials from central Asia, whether in the 
capitals of the region or in Washington, D.C.
    A good example of our coordinated efforts was the Joint Security 
Cooperation Consultation in Tashkent in January that resulted in the 
initialing of the Declaration on the Strategic Partnership and 
Cooperation Framework Between the Republic of Uzbekistan and the United 
States. Present at this consultation were not only representatives from 
the Department of Defense and the State Department's Bureau of European 
Affairs, but also representatives from my Bureau as well as the 
Treasury Department. This comprehensive approach to security was 
concretely reflected in the final document, in which our countries have 
agreed to cooperate not only in matters of military security but, 
equally important, in matters of political and economic reform, because 
security also comes from a free market-based economy and an open, 
democratic system. Indeed, in this document the government of 
Uzbekistan reaffirmed its commitment and intentions to further 
intensify the democratic transformation of its society in the political 
and economic areas. And the U.S. government has agreed to provide them 
assistance in doing so.
    We also closely coordinate our HRDF-funded projects with the wide 
range of ongoing U.S. government-funded democracy programs in central 
Asia, particularly in such areas as support for independent media and 
non-governmental organizations. USAID is implementing a wide array of 
democracy programs in these and other areas, including civic advocacy, 
the rule of law, political party development and local government 
reform. State Department public diplomacy programs are reaching out to 
the next generation of central Asian leaders by bringing young, reform-
minded people to the United States on academic and professional 
exchanges. This year, the Department is also providing additional 
funding to expand the grant-making activities of the National Endowment 
for Democracy (NED) in central Asia.
    As a sign of our concern I have traveled to the region twice since 
9/11, once in January and again two weeks ago, to meet with government 
authorities to impress upon them the need to meet their commitments to 
respect human rights. I have also devoted a significant portion of my 
Bureau's Human Rights and Democracy Fund (HRDF) to projects supporting 
democracy and human rights in central Asia and plan on increasing our 
programming there substantially. I would like to speak briefly to some 
of the overriding problems we see and how we have addressed them since 
September 11.
    In Uzbekistan the human rights record remains very poor. Human 
rights abuses by law enforcement authorities are widespread, including 
the use of torture. The judiciary is not able to function independently 
and due process is not respected--arbitrary arrests and detentions 
remain problematic. We continue to raise concerns about the treatment 
of observant, peaceful Muslim groups.
    As a result of these serious issues, we have developed a multi-
pronged approach to tackle these human rights problems. In the context 
of 9/11, we have used our enhanced cooperation to push for greater 
dialogue with government authorities with whom we had had little prior 
contact. As a result, I have been able to meet with officials from 
those government agencies where the worst abuses occur, including the 
Ministries of Justice and Interior as well as the Procurator General. 
With our Ambassador, John Herbst, in the lead, we are making progress. 
Uzbekistan has publicly expressed its commitment to internationally 
recognized human rights and since September 11 has taken several steps 
to act on that commitment. Limited but positive steps include 
permitting International Committee of the Red Cross (ICRC) access to 
prisoners, including those held in pre-trial detention centers; the 
punishment with long prison sentences of those law enforcement 
officials who were found guilty of torturing several prisoners to 
death; the amnesty releasing nearly 800 political prisoners; and for 
the first time in the history of independent Uzbekistan, registration 
of an independent human rights NGO. We understand that the U.N. Special 
Rapporteur on Torture has received an invitation to visit Uzbekistan. 
It is our hope that the long-banned opposition party, Birlik, will be 
able to re-register soon.
    While these are important steps, we still have a long way to go in 
Uzbekistan. We are under no illusion that the human rights abuses have 
ended. We know there to be about 7,000 political prisoners and will 
continue to urge the government to release them. While arrests have 
declined significantly, we know they continue. Just four weeks ago 
Yuldash Rasulov, a human rights activist whose work for the still 
unregistered Human Rights Society of Uzbekistan (HRSU) focuses on 
government repression of practicing Muslims, was arrested. For this 
reason, we are substantially expanding our support for human rights 
groups by providing them with the physical space and resources they so 
badly need to carry out their important work. With our implementing 
partner, Freedom House, my Bureau will be establishing resource centers 
for human rights NGOs to use as meeting rooms, to gain access to the 
Internet, computers and independent newspapers and other media. We are 
also providing them further training in how to conduct human rights 
monitoring and reporting. With another of our implementing partners, 
ABA/CEELL, my Bureau will soon establish a human rights clinical 
program at the Tashkent law school. As part of this program we will 
train students in basic international human rights standards and 
provide legal consultations to the public on human rights matters and 
cases. This will be the first university human rights program in the 
region.
    In Kyrgyzstan, where the government's human rights record is poor, 
we have seen some major disappointments since September 11 but are 
cautiously hopeful that after the tragic events of March 17-18 in Aksy 
district where police fired on unarmed demonstrators, the government of 
Kyrgyzstan is once again headed in the direction of greater 
democratization and respect for human rights. On May 22, Kyrgyzstan's 
government resigned following the report of a special state commission 
investigating the deaths of five civilian protestors. The commission 
ruled that senior government officials were at fault and recommended 
specific actions be taken to address the situation, including 
expediting court and legal reforms in the country. We hope that these 
recommendations will be implemented. While we are pleased that the 
Kyrgyz authorities have taken some steps to restore public confidence, 
public protests continue, with the people calling for greater 
accountability and transparency in their government. We stand ready to 
assist the Kyrgyz government take even more concrete measures to expand 
dialogue and address the grievances of civil society.
    To aid citizens to act more effectively at the grassroots level, my 
Bureau is supporting a program to provide citizen groups with resources 
and training. Our project will establish a nationwide network of 
regional information centers with corresponding discussion clubs and 
reading rooms. Each of these establishments will provide access to 
international and local independent news and information on current 
events as well as information on international and local laws regarding 
human rights and democracy. DRL also plans to promote the growth of 
democratically-oriented political parties in Kyrgyzstan.
    Public discontent in Kyrgyzstan arose over the arrest of 
parliamentarian Azimbek Beknazarov in January on charges stemming from 
incidents that had occurred 7 years earlier. The U.S. had credible 
concerns that this arrest may have been linked to his public statements 
critical of government policy and our Ambassador, John O'Keefe, 
publicly pushed for his release throughout the spring with final 
success. One of the issues that exacerbated the situation there was the 
lack of sufficient access to independent media; during this time the 
state-run printing press in Bishkek was refusing to print two of the 
independent newspapers, ``Moya Stolitsa'' and ``Res Publica,'' and the 
government had introduced strict controls on the ownership, import and 
operation of printing presses. Here, too, Ambassador O'Keefe publicly 
raised the issue of the need to respect freedom of media. I am pleased 
to report that the decree restricting printing equipment has been 
repealed.
    Even before these events, my Bureau had identified lack of access 
to free media as a problem hampering democracy in Kyrgyzstan and we 
decided to address directly the problem of independent media being 
dependent on state-controlled media infrastructure. DRL is now in the 
process of establishing an independent printing press in Bishkek that 
will serve independent newspapers and publishers to help ensure that 
the people of Kyrgyzstan will always have access to free and 
independent information.
    In Kazakhstan the government's human rights record remains poor and 
government actions since September 11 have been very mixed. A positive 
note is that Presidents Bush and Nazabayev stated in a joint 
declaration in December their ``desire to strengthen democratic 
institutions and processes, such as independent media, local 
government, pluralism, and free and fair elections'' in Kazakhstan.
    Yet we are deeply concerned that recent incidents suggest an effort 
to intimidate political opposition leaders and the independent media 
and raise serious questions about the safety of the independent media 
in Kazakhstan. An encouraging development was the formation in November 
of a major new nongovernmental political movement, the Democratic 
Choice of Kazakhstan (DVK). While the movement was able to hold public 
meetings, its founding members were subsequently all fired from their 
government jobs at the direction of the Prime Minister. In March Ak 
Zhol, a new democratic party affiliated with the DVK, was able to 
register. However, Kazakhstani authorities have detained two prominent 
members of Democratic Choice, Mukhtar Ablyazov and Galymzhan 
Zhakiyanov, on long-standing corruption charges. While we cannot 
comment on the veracity of the charges against them, these actions 
taken together suggest an effort to intimidate political opposition 
leaders.
    Of equal concern have been the negative developments in freedom of 
the media in Kazakhstan. On May 21, several unidentified men apparently 
robbed the editorial office of the independent Kazakhstani newspaper, 
``Soldat.'' On May 22, the Almaty office of another independent 
newspaper, ``Delovoye Obrozreniye Respublika,'' was firebombed and 
destroyed. Broadcast rights have been suspended since March for the 
independent television state ``TAN,'' and its primary feeder cable has 
been vandalized three times since it went off the air. Ambassador Larry 
Napper has made our concerns clear to Kazakhstani authorities and urged 
them to conduct an independent and transparent investigation into the 
firebombing incident as well as the other attacks on independent media. 
Despite this harassment, we see the emergence of nascent, fledgling 
democratic forces and DRL therefore plans to increase U.S. support for 
political party development work in Kazakhstan, and are seeking 
approval for a project to support an extensive training program for 
independent journalists in all of central Asia. This program will train 
and support journalists to increase coverage of human rights issues, 
allowing them to monitor human rights abuses and expose corruption in 
the region, providing the information citizens need to judge those in 
authority.
    In Turkmenistan the human rights record of the government remains 
extremely poor. Government repression of political opposition and civil 
society remains a particular concern as does abuse by, and impunity of, 
police and other law enforcement officials. There are severe 
restrictions on freedom of speech and media. Since September 11 there 
have been only the most minor improvements. The government announced 
that exit visas are no longer required; additionally, at year's end 
9,000 prisoners were amnestied and released and another 9,000 received 
reduced sentences. Although possibly motivated by internal reasons, 
recently there have been massive internal investigations and 
prosecution of the KNB and other security ministries for human rights 
and other abuses.
    Also in Turkmenistan, there are the well-known problems that you 
have been hearing about from your constituents concerning religious 
freedom. Under their highly restrictive law on religion, only the 
Russian Orthodox and Sunni Muslim groups feel free to worship. Other 
groups in past years have had their churches torn down or property 
confiscated. Some Protestant faithful were harassed, detained, and 
beaten. On a more positive note, the government released Baptist 
Shageldy Atakov and several Jehovah's Witnesses (imprisoned for 
conscientious objection). There were no reports of torture this year, 
and the end to exit visas has been a great benefit to the religious 
community. President Niyazov also went on record to make new 
commitments on religious rights in his letter to President Bush.
    Promotion of democracy and human rights remains an important part 
of our multifaceted engagement there, and we regularly raise 
Turkmenistan's human rights abuses bilaterally. The U.S. government has 
expanded its exchange program for Turkmen youth and my Bureau is using 
HRDF to support democracy by providing small grants to human rights and 
democracy NGOs via our implementing partners. DRL is also in the 
process of supporting a regional program for central Asia to provide 
direct support for human rights and democracy activists, independent 
journalists, and NGOs affected by government persecution related to 
their work.
    In Tajikistan, the government's human rights record remains poor; 
however, five years after a protracted and brutal civil war, it has 
taken steps to accommodate the political opposition, conclude and 
implement a peace accord in a power-sharing agreement, and include the 
opposition in elections that unfortunately remain flawed. There are 
opportunities for freedom of public expression of dissent and political 
debate is allowed. We have also witnessed the establishment of many 
local NGOs. However, we remained concerned about the need for reform of 
cumbersome election and party registration laws and we will continue to 
engage with the government on bringing them into accord with 
international standards.
    In Tajikistan, despite some local incidents with respect to 
Protestant churches, the government of Tajikistan generally respects 
the rights of observant Muslim believers. In a delicate balancing act, 
the government has permitted a religiously oriented party, the Islamic 
Renaissance Party, to field two members to the lower house of the 
national parliament since 9/11, and there are several deputies from 
this party in regional and district parliaments around the country.
    While independent media in Tajikistan does exist, journalists 
practice self-censorship as a way of avoiding government harassment. We 
were disappointed that the media law recently introduced in parliament 
does not go far enough in protecting freedom of media. Because of DRL's 
deep commitment to freedom of the media, my Bureau recently decided to 
seek approval for a project to support an extensive training program 
for independent journalists in all of central Asia. This program will 
train and support journalists to increase coverage of human rights 
issues, allowing them to monitor human rights abuses and expose 
corruption in the region, providing the information citizens need to 
judge those in authority.
                               conclusion
    In conclusion allow me to stress once again this Administration's 
firm belief that our fight against terrorism is part of a larger fight 
for democracy. Finding the proper balance between military assistance 
and support for human rights when engaging with countries only at the 
threshold of respect for human rights and democracy is not a question 
of balancing competing interests, but a question of mutually 
reinforcing goals. In this new world of greater vigilance against 
wanton terrorist attacks, we are as convinced as ever that democratic 
freedoms, political and economic stability, and human rights are key to 
a world free of terrorism. Societies that respect human dignity and the 
integrity of the person are societies that adhere to the rule of law 
and provide no opportunity for terrorism to take hold. A stable 
government that is accountable to its people and respects their rights 
and that shares power and practices pluralism can deal more effectively 
with extremist elements in its society. These are the societies we are 
striving for in central Asia, with both our policies and our assistance 
programs.
    Thank you.

    Senator Torricelli. Thank you very much, Mr. Craner.
    Mr. Crouch.

   STATEMENT OF HON. J.D. CROUCH II, ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY POLICY, OFFICE OF THE 
  SECRETARY OF DEFENSE, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Crouch. Thank you, Mr. Chairman, Senator Lugar, thank 
you for the opportunity to address this subcommittee. I regard 
the work of the subcommittee generally, but to focus on the 
human rights issue is particularly helpful to the work that the 
Department is undertaking in central Asia, both prior to 9/11, 
but certainly since 9/11.
    My remarks today will focus on U.S. Department of Defense 
cooperation with the countries of central Asia. The 
administration's policy toward central Asia falls generally 
into three broad categories, internal reform, security 
promotion and energy development. All three are interrelated 
and we coordinate our activities to advance U.S. interests, but 
the Defense Department's primary responsibility falls into the 
security area.
    Although the Department of Defense was actively involved in 
central Asia prior to September 11, my remarks today will 
emphasize our Operation Enduring Freedom cooperation with 
central Asian states. Even after the Taliban are eliminated, we 
will share important security interests with central Asian 
states which will merit our continued cooperation.
    Our bilateral initiatives with the countries in the region 
prior to September 11 laid the groundwork both politically and 
militarily for coalition military operations in central Asia in 
support of the global war on terrorism. Prior to September 
2001, our military to military cooperation was aimed at 
eliminating the threat posed by weapons of mass destruction, 
strengthening these states' sovereignty and independence and 
supporting defense reform; namely helping these states reform 
their militaries to transition from the Soviet era legacy of 
top heavy bloated militaries to smaller more professional 
forces capable of supporting legitimate defense needs, 
encouraging participation in NATO's partnership for peace 
program, promoting regional peacekeeping capabilities and 
fostering greater regional cooperation. These goals remain 
today.
    The list of these specific activities and programs is long, 
and includes activities under the cooperative threat reduction 
program as well as exchanges and training on issues relevant to 
reform and modernization. For example, central Asian officers 
and soldiers attend U.S. military schools and participate in 
our training programs. These include courses and seminars at 
the Marshall Center in Germany and courses sponsored by the 
International Military Education and Training Program, or IMET.
    These activities introduce central Asian military personnel 
to national security functions and military roles and 
responsibilities in a democratic society. They are instructed 
in the rule of law, the role of the armed forces within a 
constitutional framework, and rational decisionmaking models 
based on accepted human rights norms.
    A number of central Asian states have started developing 
professional noncommissioned officer corps and other programs 
integral to military personnel reform. Additionally, some 
central Asian states have played active roles in the NATO 
partnership for peace program and in regional cooperation 
exercises.
    Today the United States and our coalition allies have 
forces in central Asia because of Operation Enduring Freedom 
and the need to position U.S. and coalition troops and 
equipment close to Afghanistan. However, we were able to gain 
access quickly because of the relationships that we had formed 
with military and national leaders in the region prior to 
September 11.
    Another key factor contributing to the willingness of 
central Asian leaders to cooperate with the United States and 
others in Operation Enduring Freedom is that our military 
operations are enhancing their security too. I think this is an 
important point. All of the central Asian countries have told 
us that OEF directly addresses their security concerns, namely 
terrorism and religious extremism, both home grown and 
imported, narco traffickers and their close opportunistic 
collaboration with violent groups, and the transnational threat 
of weapons of mass destruction materials and crossing 
international borders. And I think that because our actions are 
in their security interest, this provides us more leverage, 
frankly, on the human rights side than we would have if we were 
in a position where they were simply doing us a favor, if you 
will. They are not doing us a favor by having us involved 
there. Our interests are I think complementary.
    Our military relationships with each nation have matured on 
a scale not imaginable prior to September 11, and I would like 
to review those for you.
    The Kyrgyz Republic has proven to be a critical regional 
partner in the war on terrorism. OEF coalition activities are 
centered on air support operations from facilities at Manas 
International Airport. Prior to the onset of operations, we 
needed rapid parliamentary action approving a status of forces 
agreement, which was granted by the government. Further, the 
Kyrgyz Republic has approved all U.S. requests to date in 
relation to OEF issues, to include basing of combat and combat 
support units at Manas. This basing is not limited to U.S. 
forces. France, Italy, Turkey, Norway, Canada and South Korea 
are also basing units at Manas.
    Uzbekistan was one of the first supporters of the U.S. 
global war on terrorism, providing a base for U.S. operations 
and supporting humanitarian relief operations into Afghanistan 
at the Friendship Bridge at Termez. German units supporting the 
international security assistance force in Afghanistan have 
established a northern base in Termez. Uzbekistan's President 
Karimov has strongly advocated active U.S. and coalition 
involvement in central Asia. Uzbekistan's own struggle against 
an indigenous terrorist group, the Islamic Movement of 
Uzbekistan [IMU], contributes to a keen awareness of the threat 
facing the region and the world.
    Kazakhstan has also played a significant role. It has 
agreed to blanket over-flight clearances for U.S. and coalition 
aircraft, waiving the normally associated over-flight fees; 
offered the use of its airfield facilities; expedited rail 
transshipment of supplies to our bases at Karshi-Khanabad in 
Uzbekistan and Manas, Kyrgyzstan. The Kazakhstanis have stated 
their desire to increase their cooperation with the United 
States, specifically in support of their efforts to restructure 
their Armed Forces and develop the capability to secure their 
oil pipelines and Caspian energy resources. They too are 
concerned about terrorist activities and groups originating 
from the south and are reorganizing their forces to address 
this threat. Finally, they plan on using U.S. security 
assistance funds to upgrade facilities in the western part of 
their country to support naval and military operations designed 
to enhance Caspian Sea security.
    Turkmenistan has worked with the United States in 
overflight and refueling operations for humanitarian flights in 
support of OEF. Eventually we expect up to 10 aircraft a day 
will be refueled in this operation, with blanket overflight and 
landing clearances. Turkmenistan has also played an important 
role in facilitating humanitarian aid shipments into 
Afghanistan.
    The Government of Tajikistan has likewise been a supporter 
of Operation Enduring Freedom. Its primary contribution has 
been the use of its international airport at Dushanbe for 
coalition refueling and basing. To date, the United States Air 
Force has refueled over 400 C-17 sorties at Dushanbe, with 
British and French air forces also refueling and basing at the 
airport.
    This provides a brief overview of the contributions that 
central Asian states have made to support the United States in 
the war on terrorism. The events of September 11 clearly 
highlighted the fact that the United States and the countries 
of central Asia have significant mutual security interests. The 
continued stability and security of this region remain an 
important U.S. interest. In this regard, the United States must 
continue cooperative efforts with central Asian states to help 
them secure their independence and territorial integrity by 
eliminating terrorism, eliminate the threat posed by the 
proliferation of weapons of mass destruction, and encouraging 
reform, both democratic and human rights reform and stability.
    For the foreseeable future, the United States defense and 
security cooperation in central Asia must continue to support 
actions to deter or defeat terrorist threats. Over the past 4 
years the IMU has posed a considerable threat to countries in 
the region. The IMU, an al-Qaeda affiliate, lost one of its two 
primary leaders in December in Konduz, Afghanistan, when he was 
reportedly killed while fighting for the Taliban. The IMU's 
planned campaigns have been severely disrupted through 
coalition military activity. Nevertheless, the organization 
remains a threat not only to Uzbekistan but to Tajikistan and 
Kyrgyzstan. The IMU's stated goal is to overthrow the 
Government of Uzbekistan and to create a regionally based, 
religious government, founded on its conception of pure Islamic 
law, a conception not unlike that of the Taliban.
    The cooperative threat reduction programs in Kazakhstan are 
focused on dismantling the former Soviet biological and 
chemical agent production facilities located there, upgrading 
security and biological institutes storing dangerous pathogens, 
and securing radioactive and fissile material.
    In Uzbekistan, we have just completed two projects, 
demilitarizing the former Soviet chemical research and 
production institute Nukus, and destroying residual anthrax 
buried in pits at Voz Island. Already, our scientists are 
preparing to engage in cooperative research projects with Uzbek 
bioscientists and we are initiating projects to enhance 
security of dangerous pathogen collections at biological 
institutes.
    All of the central Asian states face the same challenge, to 
reform Soviet style institutions while creating effective 
capabilities to defend against transnational threats. It is our 
intent to provide them a democratic model, sound military 
advice and tailored assistance. Extremist violence fueled by 
narcotics and overlaid on a population struggling with poverty 
are real obstacles to stability and security.
    The broad range and depth of our cooperation with the 
countries in central Asia was unimaginable before the tragic 
events of September 11. What is clear today, however, is that 
the defense and military to military relationships we forged in 
the years following the independence of the central Asian 
states have made it possible for us to conduct these vitally 
important military operations for the war on terrorism with 
their full cooperation and support. At the same time, U.S. 
Department of Defense programs, contacts and activities are 
furthering significant defense reforms and the establishment of 
effective military forces under the control of civilian 
authorities. The U.S. Department of Defense will continue both 
the global fight against terrorism and its efforts in support 
of genuine and positive change in the military structures of 
the central Asian states.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Crouch follows:]

   Prepared Statement of Hon. J.D. Crouch II, Assistant Secretary of 
               Defense for International Security Policy

    Mr. Chairman, thank you for the opportunity to address this 
subcommittee. My remarks today will focus on U.S. Department of Defense 
security cooperation with the countries of central Asia.
    The Administration's policy towards central Asia falls into three 
categories: internal reform, security promotion, and energy 
development. All three are inter-related and we coordinate our 
activities to advance U.S. national interests. The Defense Department's 
primary responsibilities fall in the security area.
    Although the Department of Defense was actively involved in central 
Asia prior to September 11th my remarks today will emphasize our 
Operation Enduring Freedom (OEF) cooperation with central Asian states. 
Even after the Taliban are eliminated, we will share important security 
interests with central Asian states, which will merit our continued 
cooperation.
    Our bilateral activities with the countries in the region prior to 
September 11th laid the groundwork both politically and militarily for 
coalition operations in central Asia in support of the Global War on 
Terrorism. Prior to September 2001, our military-to-military 
cooperation was aimed at:

  <bullet> Eliminating the threat posed by weapons of mass destruction;

  <bullet> Strengthening these states' sovereignty and independence;

  <bullet> Supporting defense reform, namely, helping these states to 
        reform their militaries to transition from the Soviet-era 
        legacy of top-heavy, bloated militaries, to smaller, more 
        professional forces capable of supporting legitimate defense 
        needs;

  <bullet> Encouraging participation in NATO's Partnership for Peace;

  <bullet> Promoting regional peacekeeping capabilities; and,

  <bullet> Fostering greater regional cooperation.

These goals remain today.

    The list of these specific activities and programs is long, and 
includes activities under the Cooperative Threat Reduction (CTR) 
program as well as exchanges and training on issues relevant to reform 
and modernization. For example, central Asian officers and soldiers 
attend U.S. military schools and participate in our training programs. 
These include courses and seminars at the Marshall Center in Germany, 
and courses sponsored by the International Military Education and 
Training program, IMET. These activities introduce central Asian 
military personnel to national security functions and military roles 
and responsibilities in a democratic society. They are instructed in 
the rule of law, the role of the armed forces within a constitutional 
framework, and rational decision-making models based on accepted human 
rights norms.
    A number of central Asian states have started developing 
professional Non-Commissioned Officer corps, and other programs 
integral to military personnel reform. Additionally, some central Asian 
nations have played active roles in the NATO Partnership for Peace 
(PIP) ``CENTRASBATS'' (Central Asian Battalions) and Regional 
Cooperation exercises.
    Today we have forces in central Asia because of OEF and the need to 
position U.S. and coalition troops and equipment close to Afghanistan. 
However, we were able to gain access quickly because of the prior 
relationships we had formed with military and national leaders in the 
region prior to September 11th.
    Another key factor contributing to the willingness of central Asian 
leaders to cooperate with the United States in OEF is that our military 
operations are enhancing their security, too. All of the central Asian 
countries have told us that OEF directly addresses their security 
concerns, namely: 1) terrorism and religious extremism, both home-grown 
and imported; 2) narcotraffickers and their close, opportunistic 
collaboration with violent groups; and 3) the transnational threat of 
WMD materials crossing international borders.
    Our military relationships with each nation have matured on a scale 
not imaginable prior to September 11th.
                            kyrgyz republic
    The Kyrgyz Republic has proven itself to be a critical regional 
partner in the War on Terrorism. In the Kyrgyz Republic, OEF coalition 
activities are centered on air support operations from facilities at 
Manas International Airport. Prior to the onset of operations we needed 
rapid parliamentary action approving a Status of Forces Agreement 
(SOFA), which was granted. Further, the Kyrgyz Republic has approved 
all U.S. requests to date in relation to OEF issues, to include basing 
of combat and combat support units at Manas. This basing is not limited 
to U.S. forces: France, Italy, Turkey, Norway, Canada, and South Korea 
are also basing units at Manas.
                               uzbekistan
    Uzbekistan was one of the first supporters of the U.S. Global War 
on Terrorism, providing a base for U.S. operations and supporting 
humanitarian relief operations into Afghanistan at the Friendship 
Bridge at Termez. German units supporting the International Security 
Assistance Force in Afghanistan have established a northern base in 
Termez. Uzbekistan's President Karimov has strongly advocated active 
U.S. and Coalition involvement in central Asia. Uzbekistan's own 
struggle against an indigenous terrorist group--the Islamic Movement of 
Uzbekistan (IMU)--contributes to a keen awareness of the threat facing 
the region and the world.
                               kazakhstan
    Kazakhstan has also played a significant role. It has: 1) agreed to 
blanket over-flight clearances for U.S. and Coalition aircraft, waiving 
the normally associated over-flight fees; 2) offered the use of its 
airfield facilities; and 3) expedited rail transshipment of supplies to 
our bases at Karshi-Khanabad in Uzbekistan, and Manas, Kyrgyzstan. The 
Kazakhstanis have stated their desire to increase their cooperation 
with the United States, specifically in support of their efforts to 
restructure their Armed Forces and develop a capability to secure their 
oil pipelines and Caspian energy resources. They, too, are concerned 
about terrorist activities and groups originating from the south, and 
are reorganizing their forces to address this threat. Lastly, they plan 
on using U.S. security assistance funds to upgrade facilities in the 
Western part of the country to support naval and military operations 
designed to enhance Caspian Sea security.
                              turkmenistan
    Turkmenistan has worked with the United States in overflight and 
refueling operations for humanitarian flights in support of OEF. 
Eventually, up to 10 aircraft per day will be refueled in this 
operation, with blanket overflight and landing clearances. Turkmenistan 
has also played an important role in facilitating humanitarian aid 
shipments into Afghanistan.
                               tajikistan
    The Government of Tajikistan has likewise been a supporter of 
Operation Enduring Freedom. Its primary contribution has been the use 
of its international airport in Dushanbe for coalition refueling and 
basing. To date, the U.S. Air Force has refueled over 400 C-17 sorties 
in Dushanbe, with British and French air forces also refueling and 
basing at the airport.
    This is an overview of the contributions central Asian states have 
made to support the U.S. in the war on terrorism. The events of 
September 11th clearly highlighted that the United States and the 
countries of central Asia have significant mutual security interests. 
The continued stability and security of this region will remain an 
important U.S. interest. In this regard, the U.S. must continue 
cooperative efforts with central Asian states to help them secure their 
independence and territorial integrity by: (1) eliminating terrorism; 
(2) eliminating the threat posed by the proliferation of Weapons of 
Mass Destruction (WMD); and (3) encouraging reform and stability.
                         eliminating terrorism
    For the foreseeable future, United States defense and security 
cooperation in central Asia must continue to support actions to deter 
or defeat terrorist threats. Over the past four years the IMU has posed 
a considerable threat to countries in the region. The IMU, an Al Qaeda 
affiliate, lost one of its two primary leaders in December in Konduz, 
Afghanistan, when he was reportedly killed while fighting for the 
Taliban. The IMU's planned campaigns have been severely disrupted 
through coalition military activity. Nevertheless, the organization 
remains a threat not only to Uzbekistan but to Tajikistan and 
Kyrgyzstan as well. The IMU's stated goal is to overthrow the 
Government of Uzbekistan and to create a religious-based government 
founded on its conception of ``pure Islamic law''--a conception not 
unlike that of the Taliban.
        halting the proliferation of weapons of mass destruction
    The Cooperative Threat Reduction programs in Kazakhstan are focused 
on dismantling the former Soviet biological and chemical agent 
production facilities located there; upgrading security at biological 
institutes storing dangerous pathogens; and, securing radioactive and 
fissile material.
    In Uzbekistan, we have just completed two projects: demilitarizing 
the former Soviet chemical research and production institute Nukus and 
destroying residual anthrax buried in pits at Vozrozhdeniye Island. 
Already, our scientists are preparing to engage in cooperative research 
projects with Uzbek bio scientists, and we are initiating projects to 
enhance security of dangerous pathogen collections at biological 
institutes.
                    encouraging reform and stability
    All the central Asian states face the same challenge: to reform 
Soviet-style institutions while creating effective capabilities to 
defend against transnational threats. It is our intent to provide them 
a democratic model, sound military advice, and tailored assistance. 
Extremist violence, fueled by narcotics and overlaid on a population 
struggling with poverty, are real obstacles to stability and security.
    The broad range and depth of our cooperation with the countries in 
central Asia was unimaginable prior to the tragic events of September 
11th. What is clear today, however, is that the defense and military to 
military relationships we forged in the years following the 
independence of the central Asian states have made it possible for us 
to conduct vitally important military operations in the war on 
terrorism with their full cooperation and support. At the same time, 
U.S. Department of Defense programs, contacts and activities are 
furthering significant defense reforms and the establishment of 
effective military forces under the control of civilian authorities. 
The United States Department of Defense will continue both the global 
fight against terrorism and its efforts in support of genuine and 
positive change in the military structures of the central Asian 
nations.
    Thank you, Mr. Chairman. This concludes my remarks.

    Senator Torricelli. Thank you, Mr. Secretary. Mr. Pasco, 
there is a vote in progress, but I would like to get your 
testimony in and then we will return for any discussion or 
questions afterwards, so as not to interrupt you in mid-
testimony. We could try to do this in 5 to 7 minutes so we 
don't have to interrupt you.

  STATEMENT OF B. LYNN PASCOE, DEPUTY ASSISTANT SECRETARY OF 
 STATE FOR EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Pascoe. Mr. Chairman, that's very good, because 
actually, I was going to ask your permission if I could just 
enter my statement in the record.
    Senator Torricelli. Without objection, it will be entered 
in the record.
    Mr. Pascoe. First off let me say, I really want to 
congratulate you and the subcommittee for holding these 
hearings. Those of us who work on central Asia deeply 
appreciate what Congress has done, what the Senate has done and 
this committee has done. One of the ways that the engagement 
has been very important in the region is travel that the 
Senators and Congressmen have taken to the region. Sometime 
with the past, I think for the first decade, the State 
Department had a reputation of being the one who sort of 
carried the negative water, and everybody else had nice things 
to say, and not too many people really went out there in the 
first place, so they could very selectively pick from what they 
wanted to hear, and it made the message much more muffled.
    Since last September, the large number of Senators and 
Congressmen who have gone to the region at considerable effort, 
because it's not too easy to get there sometimes, I think has 
had an extraordinary positive effect on promoting the kind of 
human rights and democracy issues that we are talking about 
today, because when they hear it from you directly, it is very 
important in its strong support for our efforts.
    Let me just say in general that I think in the period for 
the first decade, we tried to be there very early in central 
Asia and we saw that the independence of these states were 
quite important and we tried to do much on the humanitarian 
side and we certainly worked, and Senator Lugar was deeply 
involved in all of the efforts on weapons of mass destruction, 
and we worked to see what we could do in the building of civil 
society areas.
    I think we had some successes. Some of it was impressive. 
What was clear, I think though after 9/11, that one is, we 
needed bases, we needed to be able to operate from the region. 
As Mr. Couch has stated quite clearly, we got very fast, very 
good cooperation, and it remains so to this day. The other side 
of it was the question of how do we avoid the kind of problem 
we had in Afghanistan, and I think that goes to the very heart 
of the question of whether there is a conflict between the 
human rights democracy side and our cooperation in Operation 
Enduring Freedom.
    And from our point of view, there is no conflict 
whatsoever. I listened to both of you gentlemen's opening 
statements very carefully, and it occurred to me how closely we 
agree on this question, because our message at all levels, from 
the top on down, in every meeting that we had and as Lorne 
said, as J.D. said, as I was saying last week when I was out 
there, that you have to have the economic and political reform, 
the modernization if you're going to make it in the real world 
of the global economy, and that's what we're trying to do for 
these countries out there, we're trying to give them a chance. 
They have to have political stability, they have to have 
democracy, they have to have human rights and they have to have 
economic development.
    We're working at that each day. We want to work very 
closely with you Senators on this issue, and I thank you very 
much. Did I make my 7 minutes, sir?
    Senator Torricelli. You did.
    [The prepared statement of Mr. Pascoe follows:]

  Prepared Statement of B. Lynn Pascoe, Deputy Assistant Secretary of 
                State for European and Eurasian Affairs

    Mr. Chairman, distinguished members of the Subcommittee, it is my 
pleasure to appear before this subcommittee. I have just returned last 
week from visiting each of the central Asian capitals. My purpose this 
afternoon is to attempt to bridge the presentations of my two 
distinguished colleagues, who will be speaking about military 
assistance and human rights in the region. I will attempt to answer the 
question, ``Why is it so important that we engage these countries at 
this juncture?''
    Soon after the collapse of the Soviet Union, the United States 
moved to establish embassies and to engage the strategically placed 
states of central Asia. Their weaknesses were evident from the 
beginning, but we believed it important to shore up their independence 
and provided modest assistance to help them to develop into stable 
modernizing countries. Key elements in this strategy included multiple 
pipelines to help the countries of the region benefit from their energy 
wealth, humanitarian efforts to stave off the collapse of some of the 
countries' social structure, civil society programs to develop modern 
political structures, cooperative efforts to obstruct the export of 
weapons of mass destruction, and some development aid to help economic 
modernization. As security tensions nurtured by terrorist groups formed 
in Afghanistan late in the decade, the United States also provided a 
modicum of security assistance.
    The attacks of September 11 made it clear that our policies in the 
region had not gone far enough. We needed the assistance of the states 
of the region (through bases, overflight rights, supplies, etc.) to 
prosecute Operation Enduring Freedom; even more critically, the attacks 
brought home the danger that fragile countries like Afghanistan and 
potentially some of the states of central Asia could become the 
breeding ground for international terrorist groups aimed at the United 
States. It was critical to the national interests of the United States 
that we greatly enhance our relations with the five central Asian 
countries and help them find ways to take the political and economic 
reform measures necessary for long-term prosperity and stability.
    The Presidents of Uzbekistan and Kazakhstan were invited to the 
United States, numerous Congressional delegations and cabinet 
secretaries have visited the region, and government ministers from 
these countries now regularly visit Washington. Our assistance budgets 
for most of the countries have increased significantly. The states of 
central Asia have been excellent partners in the war against terrorism 
and they have welcomed our contribution to their security.
    Experience proves that individual liberty, free markets, good 
governance, and international peace are interconnected and mutually 
reinforcing. The challenge before us is how should we engage with these 
regimes to move them in the right direction toward greater personal 
freedom, rule of law, and economic openness.
    We have a vision for this region--that it become stable, peaceful, 
and prosperous--and that this is achieved through political and 
economic reform. These reforms are the only way to bring these states 
into competitive global economy. Without it, they cannot survive as 
modern states. When the Soviet Union collapsed, many hoped that the new 
countries that emerged would quickly embrace pluralistic democracy and 
market economy. We now know that those expectations of the pace and 
scale of democratic and economic change in the early 1990s were 
unrealistic. Not because democracy isn't right for central Asia. Not 
because the citizens of these countries wouldn't prefer to exercise the 
everyday political freedoms democracy affords. Indeed, it would be 
folly to assume that the universal human desire for freedom and dignity 
that has swept the whole world somehow comes to an abrupt stop at the 
borders of the central Asian region, skirts them briefly, and rushes on 
elsewhere. It is not their ``Central Asianness'' that has held back the 
growth of democracy in that region, but the leadership and socio-
economic structures of these countries which have so far kept them 
frozen in a Soviet past. We understand that major transitions in the 
basic nature of these regimes may require generational change and we 
are invested in political and economic reform in this region for the 
long term.
    Authoritarian governments and largely unreformed economies, we 
believe, create the conditions of repression and poverty that could 
well become the breeding grounds for further terrorism. And this is 
what we tell the central Asian leaders. Al-Qa'ida and the Islamic 
Movement of Uzbekistan have only been disrupted, not destroyed. And the 
radical Hezb ut-Tahrir is increasingly active in central Asia, 
especially in the Fergana Valley shared by Uzbekistan, Tajikistan, and 
Kyrgyzstan.
    Thus, not only do we believe it is strongly in our national 
interest to engage fully with these governments to urge the political 
and economic reforms that we judge are essential to alleviate the 
conditions that breed terrorism, but we also firmly believe it is in 
these countries' own national interests. When citizens, and especially 
youth, feel that they have a voice in how they are governed, when they 
believe that they have an economic stake in the future, then they will 
less likely to be attracted to a radicalized path cloaked in Islam that 
offers a utopian solution to their discontent.
    It is extremely difficult to convince central Asian leaders that 
long-term economic and democratic reforms are necessary to eliminate 
the roots of terrorism if we are not willing to help them counter 
terrorism in the short term and prove that we will be engaged for the 
long term. Our assistance in the areas of military infrastructure, 
training, military exchanges, and development of interoperability with 
U.S. and international forces help to establish their short-term 
capability to cooperate in the global war on terrorism, instill 
confidence in our partnership, and give them reason to believe that 
political and economic reforms will lead to greater cooperation, 
sustained assistance, and concrete enhancements to their security and 
sovereignty.
    Our enhanced engagement has been in place for only a short time. It 
is too early to tell if our calculated risk will lead to success--
politically and economically reformed governments that will be 
responsible and prosperous members of the world community. We are, 
however, confident that this path has led to success in many regions of 
the world and our ambassadors and their staffs strive daily to nudge 
these governments in the direction we know can work. So far, this early 
in the game, the results are promising but mixed.
    Press freedoms are suffering in Kazakhstan and Kyrgyzstan, the two 
most politically advanced states in central Asia. Across the region, 
leaders prosecute political opponents for corruption as a way to 
sideline them from competing for power. While we strongly oppose 
corruption, we object to the selectivity of some of these prosecutions, 
and we tell the leaders so. Free and fair elections have not yet 
occurred, let alone peaceful transfers of power and some of the leaders 
have extended their tenures through decrees and referenda.
    While we recognize that serious problems continue in central Asia, 
we believe that our policy of enhanced and long-term engagement has 
already begun to show some results.
    Uzbekistan is the most intriguing test case of our policy of 
enhanced engagement. As a result of our intense economic dialogue and a 
renewed calculation of Uzbekistan's interests, the country has 
reestablished its relations with the International Financial 
Institutions and is moving slowly toward economic reform that it had 
previously rejected.
    Uzbekistan has also taken steps to improve its human rights record. 
In March, for the first time ever, Uzbekistan registered an indigenous 
human rights organization; the government also has stated its 
willingness to register more of them. Also, for the first time the 
government successfully prosecuted and convicted four police officers 
charged with beating to death a man suspected of Islamic extremist 
activities, and another such trial of three National Security Service 
officers yielded convictions and sentences of five to 15 years. The 
government has released about 860 political prisoners, and local human 
rights activists report that new arrests have dropped to the single 
digits in most cities. Furthermore, after Assistant Secretary Craner's 
last visit, the Uzbek government has extended an invitation for the UN 
Special Rapporteur on Torture to come to Uzbekistan. Independent 
international organizations are working with the Interior Ministry on 
prison reforms and have visited prisons, including pretrial detention 
centers. The parliament is moving on a number of fronts to develop a 
more humane criminal code, to address abuse of power at the local 
level, to make prosecutors more accountable, and to create a more 
independent judiciary. The long-banned political opposition party, 
Birlik, is openly holding congresses around the country and moving 
toward re-registration.
    Taken together, these individual achievements are adding up to an 
impressive beginning on reform, but they have not been broadly reported 
in the United States. As our engagement with the Uzbek authorities on 
human rights and religious freedom issues intensifies, the government 
of Uzbekistan has taken several notable steps. There is a long way to 
go, but we are encouraged.
    Kyrgyzstan, which has retreated from its early promise, reached a 
crisis point this year. Some argued that the government may have 
believed it had carte blanche to restrict human rights because it was 
permitting the coalition military base at Manas Airport. We have not, 
of course, backed off In fact, we increased our engagement on human 
rights. Kyrgyzstan's well-developed civil society mounted largely 
peaceful public protests against the government's selective prosecution 
of popular opposition politicians and limitations on freedom of the 
press. During these protest, police killed five demonstrators. In an 
attempt to defuse the ensuing crisis, the government resigned, and 
President Akayev has appointed several reformist ministers to key 
positions. He also rescinded a government decree, which had earlier 
resulted in printing presses refusing access to independent newspapers. 
The give and take between the government, the opposition, and other 
elements of Kyrgyz society is a dynamic one, confirming again the 
strong roots of civil society.
    Kazakhstan is currently undergoing worrisome developments. There 
has been a spate of unsolved attacks and government restrictions 
against the independent media, and the government continues selective 
corruption prosecutions against opposition politicians when they appear 
to be gaining political influence. Furthermore, the Kazakh lower house 
of Parliament recently passed a law on political party registration 
requiring that each party have no less than 50,000 members; greatly 
hindering the formation of opposition parties. However, there have also 
been success stories. The Constitutional Court struck down restrictive 
amendments to the Religion Law, and President Nazarbayev upheld this 
decision. Also, the government has registered an opposition political 
party, although it is prosecuting two of the leaders of one of the 
parties. The trend in Kazakhstan in recent months has been generally 
disappointing. We will continue to press for improvement.
    In Tajikistan, an Islamic opposition party plays a responsible role 
in government, and the International Committee of the Red Cross has for 
the first time attained access to prisons. Even in isolationist 
Turkmenistan, non-governmental organizations--the foundation of civil 
society--are beginning to take hold, and the government appears to 
recognize that the stranglehold of the Committee for National Security 
(the KGB's successor) needs to be relaxed, and the abolishment of exit 
visas has eased the flow of citizens in and out of the country.
    I have gone to some length about each of these countries to 
demonstrate the complexity of the human rights issues in the countries 
of central Asia. While there continue to be real problems, there have 
also been successes since September 11. Our enhanced engagement is 
helping to break the habit of repression and stagnation.
    The challenges facing the central Asian countries are indeed 
daunting. But if the countries of the region are now willing to 
undertake political and economic reforms that will lead to greater 
freedom and opportunity for their citizens, then we are prepared to 
support those efforts. We have increased our assistance to the region, 
and are working closely with the governments, private sector, and 
NGO's. If the actions of the governments fail to match their words on 
reform, then we will reassess the assistance we provide. central Asia's 
stability also is threatened by fundamental problems of poverty, 
unemployment, political oppression, and isolation from the rest of the 
world. These problems can make the region potential breeding grounds 
for religious extremism and ethnic conflict.
    While addressing these problems requires a long-term vision and 
commitment of resources, we already have increased our effort in 
several key areas, such as improvements in local infrastructure and 
social services, job creation through provision of microcredits and 
small business training and assistance to support accession to WTO and 
to promote trade, investment, and economic development through fiscal 
and accounting reform. We have also expanded exchanges to show central 
Asians, particularly young people, how our society has worked to 
promote religious and ethnic tolerance, educational reform, and 
strengthening of NGO's, the independent media, and human rights 
monitors to urge greater government transparency. We continue to 
support the independent media, and are helping improve primary health 
care, with a particular focus on fighting tuberculosis. We also are 
working with the five central Asian countries to improve regional water 
resource management, and have supported NGO's in each country to help 
build and strengthen civil society.
    In closing, let me reiterate that the steps we have taken to 
greatly enhance our ties with the countries of central Asia have been 
taken because they are in the U.S. national interest. We need to work 
closely with these countries to prosecute the war against terrorism, 
but we also need to do what we can to ensure that this becomes a 
stable, prosperous region, not a threat to international society. To 
this end, we are seeking to use our influence to promote the political 
and economic reform necessary for them to prosper. What we want is for 
these governments to exercise power wisely, responsibly, and humanely 
so that these nations can attain stability, security, and prosperity. 
This is our vision for central Asia. We believe we are on the right 
track.

    Senator Torricelli. We will recess briefly for the vote, 
and then return promptly to resume.
    [Recess.]
    Senator Torricelli. The subcommittee will come to order 
please. Mr. Crouch, I understand that you have to leave shortly 
and if indeed we don't finish by then, I will certainly 
understand that, please just excuse yourself.
    I would like to begin by asking Senator Lugar to proceed.
    Senator Lugar. Thank you, Mr. Chairman. Just to play the 
devil's advocate for a moment, we have all, as suggested by 
Secretary Pascoe, been in reasonable agreement about our ideals 
and objectives in the region. But let's say a diplomat from any 
of the five states we're talking about today comes to pay a 
visit on a Congressman behind closed doors. This diplomat says 
the war on terrorism is serious in our country, so serious as a 
matter of fact that we could be destabilized, overthrown by 
terrorists, and so as a result we take a dim view of that and 
we have tried to round up these terrorists, put them in jail so 
they are not out there to create some difficulty in our 
country, your country, or anybody else's country.
    So we take your point about human rights and due process 
and all the rest of it, and we're all learning about these 
things, we're involved with institutions and we think they're 
doing a pretty good job given where we started from with our 
Soviet past. But we are coming to appreciate it.
    But as a practical matter, what would you have us do? You 
know, you write reports and talk about how many people are in 
our jails and how many didn't have due process, and infer 
they're being tortured and otherwise mishandled. But what would 
you have us do?
    This I ask of each of you, because you must have had 
similar conversations. As veteran diplomats out in the field, 
without naming any one country one or the other, this 
conversation may have taken place several times, and what do 
you say? Are we for incrementalism, gradualism, or do we have a 
program whether it's through the National Endowment for 
Democracy or Democratic Public Institutes, or Center Democracy, 
or outside the State Department or Defense. You know, give us 
some guidelines as to how this idealism and these objectives 
might be reached in an intermediate period of time.
    Mr. Craner. Senator, I think we probably all have had 
variations on that conversation, and I will let Lynn and J.D. 
talk for themselves. We make a couple points. No. 1 is, they 
have been living in a bad neighborhood. In some cases there are 
bad governments in the neighborhood and in some cases there are 
terrorists in the neighborhood. In many cases, it's both.
    We make the case that as J.D. said, this is not a one-way 
relationship, that they are not the ones doing us favors, we're 
doing each other favors. And in a real sense, we have 
eliminated to a large degree the terrorist threat in their 
neighborhood. They have made the case for some years that it is 
that terrorist threat that has caused them to have closed 
political systems, and even they will now say to a large degree 
that threat has been eliminated.
    So what we wish them to do is to open up their political 
systems to allow human rights activists or innocent people out 
of jail, to begin to allow openings to reform their judicial 
processes, and certainly to open up the political system so 
that political parties can begin to form. We are backing that 
up, as I noted, with exactly the kind of program that you 
mentioned, on a wide variety of fronts and with large amounts 
of money.
    These are all things to get to what Senator Torricelli was 
talking about. These are all fronts that are getting a lot more 
attention than they did before the 11th. In a sense, I think a 
lot of people did not want to get involved with central Asia 
before September 11. I was guilty myself. I had to run the 
International Republican Institute and I had real problems with 
central Asia in the late 1990s, because I thought this 
political space was frozen, and I didn't think it was worth 
staying there.
    I think what the 11th has given us is a new opportunity for 
us to press the issues that we care about, but it's also a new 
opportunity for the leaders in the region. Again, they live in 
bad neighborhoods, and they have a new opportunity to have, if 
things go well, a longstanding and steadfast ally. But finally, 
we can make very, very clear to them, if you want that kind of 
deep relationship, you're going to have to open up your 
societies, because that's part of the bargain.
    Mr. Pascoe. The only thing I would add to that, and it fits 
in very well with what was said, is that as the situation has 
been changing, many of the governments in the region really do 
want to join the global economy, they do want to be part of the 
modern world. The last 10 years were not exactly a golden age 
for them either as they look at it, and so they do look to us 
to see what we can do to some degree to help.
    One of the surprising things to me is how willing they are 
and open they are to aid programs that really go into the 
judiciary and into some of these other programs where they're 
sometimes asking us, almost pleading with us, will you do 
something to help with our judges, or would you do something to 
help with the kind of police training that we need so that we 
don't have people beaten up when they go into jails. Now, some 
of that may be just eyewash, but I do think there is a genuine 
desire to use this new relationship with the United States to 
get at a different stage than where they were before and that 
requires quite a few changes in their societies, and I think 
they recognize it.
    Senator Lugar. Just a quick followup on that, because 
that's a good point. They say give us some help with police 
training for example. It occurs to me from the experience our 
country had in many Central American countries in the 1980s 
that there were pleas of a similar nature, but they also in a 
more sophisticated way, pled for some help in building a 
legislative capacity. As some political scientists have pointed 
out, every country has an executive, maybe a king, dictator, 
tsar, and not so well developed often are constituencies and 
people who represent them in a legislative branch.
    In Central America, I can recall that frequently people 
were elected to a legislative assembly, they had no offices, no 
books, quite apart from copy machines or pencils or paper, that 
sort of thing. The things that we could do as a country almost 
as a standard package, it seems to me, were very profound, they 
were rudimentary.
    But Members of Congress who visited those countries found 
that many people yearned to find out what the congressional 
experience was like, what do you do as a legislator, physically 
how you would handle your day and these sorts of thing. And I'm 
just wondering with regard to the countries that we are 
discussing today, if it's not possible to think in terms, if 
not a standard package, but something approximating this, of 
assistance to develop a legislative system. This could be 
supplemented by European friends or people around the globe who 
also have experience in these areas. It's important, it seems 
to me, even as we are evaluating on a human rights basis how 
well you're doing, that we offer an opportunity, and a fairly 
inexpensive one, to improve their governmental structures.
    Mr. Craner. I think a lot of people who deal with this 
issue are bringing a lot of experience to bear from the years 
you talked about, from the 1980s. But also, what kind of 
political democratic development was undertaken around the 
world in the 1990s. And that's the kind of experience that, as 
I outlined, we're offering. And certainly in countries that 
have a semblance of free elections, working with the 
legislatures is something that we want to do over time. But 
you're right, with all the experience we bring to bear, with 
all the experience the Europeans have brought to bear for the 
last few decades, and finally, with the experience of the new 
democracies, these are all things that we would like to see 
undertaken in central Asia. And as Lynn said, to a greater 
degree than one might expect, we are being asked to do that.
    It doesn't mean things are going to always progress in one 
direction. As we've seen in the last couple of months, there 
will be some stumbling blocks. But it is interesting that we're 
being asked to do these things and are not discouraged from 
doing them.
    Mr. Crouch. I would just have one quick point, and I agree 
with what my colleagues say here, that what we hear time and 
again in talking to the countries in the region is how improved 
the security relationship is, but they are also cognizant of 
the fact that one of these days operations in Afghanistan will 
wrap up and one of these days we will be reconfiguring 
ourselves for other challenges, and they're very concerned that 
the United States will sort of leave them holding the bag, if 
you will.
    We have reassured them it is in our interests not to do 
that and there's a long-term security commitment there, that 
we're interested in the region, we're interested in developing 
military to military cooperation and the like. But that also 
provides us, I think, a lot of leverage in this area, and we've 
made it very clear, even in our defense discussions, that if 
they're going to be successful, if they're going to integrate 
with the global economy, they have to attract investment and 
they have to have sustained interest, if you will, from the 
outside world, and the only way they can do that is to move in 
the democratic direction. And so, I think that message slowly 
is sinking in.
    Senator Torricelli. Secretary Craner, access of American 
officials to opposition leaders in many of these countries, is 
access generally available?
    Mr. Craner. Yes, I think it's fair to say across the board, 
and even in Turkmenistan. I certainly had no problems in 
Uzbekistan or Kazakhstan.
    Senator Torricelli. No problems with access to human rights 
organizations, to opposition political leaders or even 
political prisoners? Were human rights organizations generally 
allowed in each of the nations we've discussed to have access?
    Mr. Craner. I think that's probably a little tougher. Human 
Rights Watch was based in Uzbekistan some years ago as part of 
the deal with the OSCE. I don't think they gain regular 
unfettered access around the country.
    Senator Torricelli. They do not?
    Mr. Craner. No.
    Senator Torricelli. And Secretary Crouch, you listed an 
element of military cooperation. Is there anything in a public 
setting that you can recite that the United States has sought 
militarily that has not been provided for access in any of 
these countries?
    Mr. Crouch. No. I mean, I think there have been 
opportunities that we've had to pass up, would probably be a 
better way to characterize it.
    Senator Torricelli. But generally there's no public 
complaint about any request from any nation?
    Mr. Crouch. No. And our approach has been to kind of let 
these countries kind of characterize the ways in which they are 
cooperating, and at various times they have been willing to be 
more public about this than not, depending on the stage of the 
war in Afghanistan, but other than that, no.
    Senator Torricelli. And Secretary Craner, to return to you, 
in any of these countries, are there numbers of people who 
would actually classify as political prisoners, people being 
held not with any other criminal charge?
    Mr. Craner. Definitely.
    Senator Torricelli. In each country?
    Mr. Craner. Certainly in Turkmenistan and Uzbekistan. I 
would say some in Kyrgyzstan. So, in each country I would say 
yes, but much larger numbers toward the back of the pack.
    Senator Torricelli. Toward the back of the pack?
    Mr. Craner. Those with much less democratic practices.
    Senator Torricelli. I thank you each for joining us today. 
Your testimony was very helpful. Thank you.
    At this point the committee would like to hear from the 
former Ambassador to Kazakhstan, William Courtney, and from 
Martha Brill Olcott, Carnegie Endowment. Thank you, gentlemen.
    Welcome. Thank you very much for joining us today, and Mr. 
Courtney, if you might begin please?

 STATEMENT OF HON. WILLIAM H. COURTNEY, FORMER U.S. AMBASSADOR 
    TO KAZAKHSTAN AND GEORGIA, FORMER SENIOR ADVISOR TO THE 
  NATIONAL SECURITY COUNCIL, SENIOR VICE PRESIDENT, NATIONAL 
           SECURITY PROGRAMS, DYNCORP, WASHINGTON, DC

    Senator Lugar. Mr. Chairman, I would ask that Mr. 
Courtney's family might be recognized. I see that they have 
accompanied the Ambassador here today.
    Senator Torricelli. Fine. If you would like to do the 
honors of the recognition.
    Ambassador Courtney. My wife Clarissa, my son Will and my 
daughter Allison.
    Senator Torricelli. Thank you very much for being with us 
today, and I hope you're pleased with your front row seats.
    Ambassador Courtney. Thank you, Mr. Chairman. It's an honor 
to be here before this committee again. I will offer a 
perspective on U.S. security interests in central Asia and the 
south Caucasus and their relationship to U.S. human rights and 
democracy interests. For convenience, I will call the whole 
region southern Eurasia.
    I will focus on two main questions: Now that the war in 
Afghanistan is winding down, how should America insure its 
long-term security interests in southern Eurasia? How should 
the United States do this while advancing other U.S. interests, 
such as human rights and democracy?
    The Iraqi invasion of Kuwait a decade ago and the terrorist 
attacks of September 11 remind us that U.S. interests can be 
challenged by surprises, or by events thought to be improbable. 
The United States could face a wide range of potential threats 
in southern Eurasia. They include nuclear weapons smuggling, 
large-scale terrorism, and attempts to choke off Caspian oil 
exports through the south Caucasus. The range of these 
potential threats shows the value of pursuing long-term U.S. 
security interests through means that are potent, flexible and 
geographically dispersed. The metaphor for U.S. defense 
transformation--changing from a threat-based to a capabilities-
based strategy--is apt for how America should protect its 
security interests in southern Eurasia. I will suggest 7 
principles for U.S. policies to secure these interests.
    One, continue the U.S. policy of active engagement pursued 
by three administrations with bipartisan congressional support. 
A decade ago America installed embassies in southern Eurasia 
and launched generous aid programs. Today, U.S. engagement 
remains vital. The United States should not write off any state 
as hopeless or failed. A decade ago, some experts asked why 
America had an embassy in Tajikistan; it was remote and 
irrelevant. Today, no one would say this.
    Two, bolster U.S. security assistance. U.S. security 
assistance programs, including Nunn-Lugar threat reduction 
programs, are a tremendous success. They have helped eliminate 
major threats to U.S. security interests. To cite one example, 
in 1994, the United States removed 600 kilograms of highly 
enriched uranium from Kazakhstan. Were it not for U.S. threat 
reduction programs, the uranium might still be there in unsafe 
storage--where an Iran or a North Korea might seek to acquire 
it.
    U.S. programs have fostered a better understanding in the 
region of U.S. security goals. One example is the Defense 
Threat Reduction Agency's program to train and equip border 
security and law enforcement personnel to detect and interdict 
smuggling of nuclear weapons and other sensitive items.
    When the Soviet Union collapsed, militaries in southern 
Eurasia had little experience with how a Ministry of Defense 
was supposed to function, or deal with Presidents, parliaments, 
and publics. The Soviet military had assigned many soldiers in 
central Asia to construction units, partly because of limited 
Russian language skills. The first Defense Minister in 
Kazakhstan had been a specialist in military motor pool 
operations. As Assistant Secretary Crouch pointed out, U.S. 
programs help new ministries of defense and security to develop 
the leadership skills necessary to run their respective 
ministries.
    For a decade prior to September 11, U.S. programs helped 
condition audiences in southern Eurasia to understand U.S. and 
Western security priorities. Goodwill for these programs paved 
the way for military and security officials in southern Eurasia 
to accept U.S. requests for access and other help in 
prosecuting the war in Afghanistan. But some in the region 
worried that the United States might not be committed to 
winning in Afghanistan or that the Taliban or al-Qaeda might 
later take revenge on those who had aided the United States. 
Once B-52s started flying over Afghanistan, concerns 
diminished. Continued U.S. engagement in Afghanistan will build 
further confidence in southern Eurasia of American power and 
will.
    Three, maintain a near constant but flexible security 
presence in southern Eurasia, but without establishing large 
U.S. bases. America has filled a security vacuum in southern 
Eurasia and Afghanistan. This has met with regional support. An 
American pullout from southern Eurasia when events in 
Afghanistan allow it, would recreate a destabilizing vacuum. 
Care must be taken, however, to structure a U.S. presence that 
is strong, fluid, and not too dependent on any one country.
    In southern Eurasia, the United States should seek broad 
access to host country military bases. With such access, the 
United States will be more agile in addressing unpredictable or 
dispersed contingencies. For example, the United States will be 
better able in a crisis to deploy mobile defenses in the region 
to counter missile threats from Iraq or Iran, conduct nuclear 
emergency search operations, or help protect Caspian oil 
pipelines. U.S. forces should make appropriate investments at 
host country bases to which they have access, and sustain them 
through low-profile contractor support.
    Four, work to change the underlying conditions that give 
rise to extremism. Promoting democracy and respect for human 
rights in southern Eurasia is the most effective way to solve 
separatist disputes and lessen support for Islamic extremism.
    One risk in southern Eurasia is that disenfranchised groups 
will revert to force to overturn governments, but another risk 
is that governments facing crises of legitimacy will seek to 
stay in power too long. The two risks feed each other.
    In southern Eurasia where Soviet-era leaders remain in 
power, transitions are looming. America can do much to 
encourage movement toward more democratic systems of 
government. For example, in some cases where elections were 
rigged or governments are losing legitimacy, it may make sense 
to urge early or more frequent elections combined with vigorous 
monitoring.
    Five, pursue specific human rights and democracy goals as 
an integral part of U.S. security assistance and cooperation 
programs. U.S. efforts in recent years have shown that this can 
be done. In one case a regional country gave new prison access 
to the International Committee of the Red Cross. In southern 
Eurasia U.S. security cooperation boosts governmental 
legitimacy, which offers a source of leverage for promoting 
democracy and human rights.
    Six, multilateralize security cooperation. Working with 
European allies and friends, the United States has gained 
increased cooperation in southern Eurasia on common security 
goals, such as nonproliferation, counterterrorism and 
counternarcotics. European and American cooperation to help 
Kazakhstan to safely dispose of large quantities of former 
Soviet military equipment would be helpful.
    Successive U.S. administrations have stressed to Russia 
that it has an interest in prosperous neighbors and stable 
borders in southern Eurasia. Except in Abkhazi in 1992-1993, 
Russia has generally respected borders in southern Eurasia. A 
decade ago, many experts did not expect such restraint. 
President Putin seems to have decided that Russia has a large 
stake in its relationship with the West, and that intimidating 
poorer neighbors in southern Eurasia is an unhelpful draw on 
Russian energies and prestige. Russian military and security 
elements have different views, however, and the pendulum could 
swing back.
    Seven, increase programs to promote long-term change. A 
decade ago, the United States had undue expectations for early 
reform in the former Soviet Union. Aid programs over-invested 
in trying to reform the statist and corrupt ways of Soviet-era 
mandarins. For example, with rare exception, U.S. defense 
conversion programs were unsuccessful. U.S. aid programs under-
invested in programs with a long-term payoff such as education 
for young people. They are a receptive audience and the best 
hope for dramatic change in the future. They want more 
freedoms. Young people in their 30s were largely trained in 
Soviet-type environments and their attitudes toward change and 
risk taking differ from the attitudes of those who are younger. 
U.S. programs should focus on student-age youth.
    In conclusion, I believe that U.S. engagement in southern 
Eurasia has been a remarkable success. The task now is to take 
engagement to a higher level and sustain it. The war against 
terrorism has brought home the importance of this distant 
region. In a world of global terrorism, drug trafficking, and 
proliferation of weapons of mass destruction, distant and 
remote places can be as strategic as neighboring and familiar 
ones.
    Thank you.
    [The prepared statement of Ambassador Courtney follows:]

Prepared Statement of Hon. William H. Courtney, Former U.S. Ambassador 
   to Kazakhstan and Georgia, Former Senior Advisor to the National 
 Security Council, Senior Vice President, National Security Programs, 
                                DynCorp

    It is an honor to appear before you today. I will discuss long-term 
U.S. security interests in central Asia and the South Caucasus and 
their relationship to U.S. human rights and democracy interests. For 
convenience I will call the whole region ``Southern Eurasia.'' My 
perspectives have been influenced by my tenure as Ambassador to 
Kazakhstan (1992-95) and Georgia (1995-97), and more generally, by a 
27-year Foreign Service career devoted mostly to politico-military, 
Soviet, and Eurasian affairs. I am now Senior Vice President for 
National Security Programs at DynCorp. The views I am expressing today 
are personal.
    I will focus on two main questions:

  <bullet> Now that the war in Afghanistan is winding down, how should 
        America ensure its long-term security interests in Southern 
        Eurasia?

  <bullet> How should the United States do this while advancing other 
        U.S. interests, such as human rights and democracy?

    The Iraqi invasion of Kuwait a decade ago and the terrorist attacks 
of September 11 remind us that U.S. interests can be challenged by 
surprises, or by events thought to be improbable. The United States 
could face a wide range of threats in Southern Eurasia. They include 
nuclear weapons smuggling, large-scale terrorism, armed separatism, and 
attempts to choke off Caspian oil exports though the South Caucasus. 
The wide range of these potential threats shows the value of pursuing 
long-term U.S. security interests through means that are potent, 
flexible, and geographically dispersed. The metaphor for U.S. defense 
transformation--changing from a threat-based to a capabilities-based 
strategy--is apt for how America should protect its security interests 
in Southern Eurasia. I will suggest seven principles for U.S. policies 
to secure these interests.
    One, continue the U.S. policy of active engagement pursued by three 
administrations with bipartisan Congressional support. A decade ago 
America installed embassies in Southern Eurasia and launched generous 
aid programs. It supported IMF and World Bank aid for countries that 
help themselves by reforming. Early U.S. humanitarian shipments of 
medicine and food saved lives and won friends. Today, U.S. engagement 
remains vital. The United States should not write off any state as 
hopeless or failed. A decade ago some experts asked why America had an 
embassy in Tajikistan; it was remote and irrelevant. Today no one would 
say this.
    Governments in the region seek better ties with the United States 
as a source of domestic legitimacy and economic improvement. Inadequate 
reforms, however, have weakened states and diminished opportunities for 
stronger U.S. ties. For example, the absence of free and fair elections 
hobbles governments and saps investor confidence. Energy-rich 
Kazakhstan and Azerbaijan have attracted large-scale foreign 
investment, but othenvise most foreign investors have been wary of the 
region. In Georgia the lack of consensus for reform and conflict 
resolution, compromised elections, and misplaced hopes that energy 
pipelines are a panacea have led to stagnation. In the mid-1990s 
Georgia was the fastest-growing economy in the former Soviet Union and 
reforms had momentum. Then leaders lost confidence and failed to build 
a multi-ethnic consensus to move the country ahead. In these and other 
countries, internal reforms are vital and they will not come without 
American and European engagement and strong support.
    Two, bolster U.S. security assistance. U.S. security assistance 
programs, including Nunn-Lugar threat reduction programs, are a 
tremendous success. They have helped eliminate major threats to U.S. 
security interests, such as large biological weapons facilities in 
Kazakhstan and Uzbekistan and SS-18 ICBM fields in Kazakhstan. In 1994 
the United States removed 600 kilograms of highly enriched uranium from 
Kazakhstan. The uranium was weapons-grade material that had been left 
behind and forgotten by Moscow when the USSR collapsed. Were it not for 
U.S. threat reduction programs, the uranium might still be there in 
unsafe storage--where an Iran or a North Korea might have sought to 
acquire it.
    U.S. programs have fostered a better understanding in the region of 
U.S. security goals. One example is the Defense Threat Reduction 
Agency's program to train and equip border security and law enforcement 
personnel to detect and interdict smuggling of nuclear and other 
sensitive items. U.S. programs help regional soldiers learn defense 
skills suitable to democratic circumstances. They learn the value of 
civilian leadership, and how to distinguish combatants from civilians 
and improve treatment of prisoners. U.S. training can help regional 
forces conduct more focused anti-terrorism campaigns.
    Military and security establishments in the region face Herculean 
reform tasks, and progress is hindered by undemocratic environments and 
regional conflicts. The CENTRASBAT initiative--to form a regional 
peacekeeping force that could perform U.N. peacekeeping chores around 
the world--fell victim to rivalries. Robust U.S. military-to-military 
relationships in the region can lessen these obstacles.
    When the Soviet Union collapsed, militaries in Southern Eurasia had 
little experience with how a ministry of defense was supposed to 
function, or deal with presidents, parliaments, and publics. The Soviet 
military had assigned many soldiers from central Asia to construction 
units, partly because of limited Russian language skills. Military 
officers from the region were often pigeonholed in assignments that 
prevented them from gaining a broad understanding of defense policy-
making and management. The first defense minister in Kazakhstan had 
been a specialist in military motor pool operations. U.S. problems help 
new ministries of defense and security to develop the leadership skills 
necessary to run their respective ministries. The International 
Military Education and Training program and the Marshall Center in 
Germany have provided valuable leadership, management, and democratic 
law training to mid- and senior-level officers and civilians.
    For nearly a decade prior to September 11, U.S. programs helped 
condition audiences in Southern Eurasia to understand U.S. and Western 
security priorities. Goodwill from these programs paved the way for 
military and security officials in Southern Eurasia to accept U.S. 
requests for access and other help in prosecuting the war in 
Afghanistan. Many regional military leaders had served in Afghanistan 
during the USSR's ill-fated war, however, and wondered whether the 
United States would fare better. Some in the region worried that the 
United States might not be committed to winning in Afghanistan, or that 
the Taliban or al Qaeda might later take revenge on those who had aided 
the United States. Once B-52s started flying over Afghanistan, concerns 
diminished. Continued U.S. engagement in Afghanistan will build further 
confidence in American power and will.
    Some threats in Southern Eurasia will challenge U.S. interests but 
not occasion a U.S. military response. Counter-terrorism, counter-
narcotics, nonproliferation, and threat reduction programs often are 
the best instruments. They can help regional countries tighten borders, 
fend off rebels engaged in terrorism and narcotics, and deny terrorists 
opportunities to acquire sensitive materials for weapons of mass 
destruction. Nonproliferation cooperation with Kazakhstan prevented the 
shipment of advanced air defense missiles to a Persian Gulf state. In 
some cases preemptive acquisition by the United States can prevent 
dangerous proliferation. Tailored security cooperation can sensitize 
regional services to U.S. priorities and provide them with the 
resources to cooperate with us.
    Three, maintain a near-constant but flexible security presence in 
Southern Eurasia, but without establishing large U.S. bases. America 
has filled a security vacuum in Southern Eurasia and Afghanistan. This 
has met with regional support. An American pullout from Southern 
Eurasia after the new government in Kabul consolidates control of 
Afghanistan would recreate a destabilizing vacuum. Care must be taken, 
however, to structure a U.S. presence that is strong, fluid, and not 
too dependent on any one country. Unstable governments in the region 
are the norm. A U.S. base could become a lightening rod for protests if 
the U.S. presence were seen as propping up a dictatorship or if large 
numbers of American troops were based at a facility. Finally, a U.S. 
base in one place may not be useful for meeting threats elsewhere. 
Establishing a U.S. base in Southern Eurasia modeled after, say, 
Incirlik Air Force Base in Turkey would be ill advised. At the same 
time, U.S. bases close to the region, such as Incirlik, are truly 
indispensable in supporting U.S. interests in Southern Eurasia.
    In Southern Eurasia the United States should seek broad access to 
host country military bases, and use this access for joint training, 
exercises, and planning. Access must benefit both U.S. and host country 
forces. With wide base access, the United States will be more agile in 
addressing unpredictable or dispersed contingencies. For example, the 
United States will be better able to deploy mobile defenses in the 
region to counter missile threats from Iraq or Iran, conduct nuclear 
emergency search operations, or help protect Caspian oil pipelines. 
U.S. forces should make appropriate improvements at host country bases 
to which they have access, and sustain them through low-profile 
contractor support. Base access in Southern Eurasia will benefit U.S. 
troops by enabling them to gain a broad range of experience and develop 
personal relationships with host country personnel.
    Four, work to change the underlying conditions that give rise to 
extremism. This principle is equal in importance to any of the other 
six I will discuss today. Promoting democracy and respect for human 
rights in Southern Eurasia is the most effective way to solve 
separatist disputes and lessen support for Islamic extremism.
    One risk in Southern Eurasia is that disenfranchised groups will 
resort to force to overturn governments, but another risk is that 
governments facing crises of legitimacy will seek to stay in power too 
long. The two risks feed each other. Instabilities are mounting in such 
countries as Georgia and Kyrgyzstan. Both were once reform leaders but 
have lost their way. They share problems of massive corruption, rigged 
elections, unpopular rule, pressure against the media, and economic 
stagnation. In Georgia, only democratic and economic reforms can unify 
a country with so many ethnic minorities that Andrey Sakharov once 
called it a ``little empire.''
    In Southern Eurasia where Soviet-era leaders remain in power, 
transitions are looming. America can do much to encourage movements 
toward more democratic systems of governance. For example, in some 
cases where elections were rigged or governments are losing legitimacy, 
it may make sense to urge early or more frequent elections combined 
with vigorous monitoring. Elections held according to the original 
constitutions of the regional states--which generally provide for 
presidential elections every five years--would be a major improvement.
    In the South Caucasus America is working to resolve the Nagorno-
Karabakh conflict, and the more intractable Abkhazia conflict. But 
undemocratic governments have lacked the confidence to make compromises 
needed to reach negotiated agreements. Abkhazia has few incentives to 
come under Tbilisi's authority if Georgia remains an economic basket 
case. Support by Russian military and security elements for the Abkhaz 
separatists undermines prospects for a negotiated accord. By 
encouraging internal reform in the states involved, the United States 
improves prospects for dispute settlements.
    More democracy in China may lessen the risks of Uygur separatism 
and terrorism that could enmesh Kazakhstan or Kyrgyzstan. In Uzbekistan 
opening the political process to wider participation will lessen the 
appeal of separatist or terrorist groups. Although the Islamic Movement 
of Uzbekistan, or IMU, has suffered great losses in the Afghanistan 
war, it or similar groups may still attract youth looking for 
alternative means of political expression. The problem of openness is 
even more serious in Turkmenistan.
    Water disputes are a major source of potential future conflict in 
the region, and Aral Sea desiccation is a monumental environmental 
tragedy. Experience suggests that weak and authoritarian governments 
may not have the legitimacy required to negotiate compromise solutions 
with neighbors while maintaining internal peace. Water sharing 
agreements are signed but not implemented. America may not have much 
influence on the resolution of water rights issues, but it can 
contribute by working for open political systems in the region.
    In northern Kazakhstan, Slays tend to emigrate rather than protest 
their unequal access to the political process and its benefits. The 
construction of the new capital in the northern city of Astana could be 
an effort to make it harder for northern oblasts to secede to Russia 
should they seek to do so. A better way to ensure Kazakhstan's 
integrity is to give Slavs equal access to an open political process.
    Five, pursue specific human rights and democracy goals as an 
integral part of U.S. security assistance and cooperation programs. 
U.S. efforts in recent years have shown this can be done. In one case a 
regional country gave new prison access to the International Committee 
of the Red Cross. In Southern Eurasia U.S. security cooperation boosts 
governmental legitimacy, which offers a source of leverage for 
promoting democracy and human rights. Cooperative Threat Reduction 
programs have explicit human rights criteria. Whatever the legal 
restrictions, applying human rights criteria in specific--not just 
generic--ways serves long-term U.S. interests. This is not to deny, 
however, that in some short-term circumstances security and human 
rights goals may conflict.
    Six, multilateralize security cooperation. For a decade the United 
States has strongly backed active involvement by the countries of 
Southern Eurasia in the Organization for Cooperation and Security in 
Europe and its predecessor. The OSCE provides a broad framework for 
advancing U.S. security and human rights interests in the region. In 
the mid-1990s all but one country of Southern Eurasia joined NATO's 
successful Partnership for Peace Program; Tajikistan joined last year. 
Working with European Allies and friends, the United States has gained 
increased cooperation in Southern Eurasia on common security goals, 
such as nonproliferation, counter-terrorism, and counter-narcotics. 
Regional states have intercepted sensitive technologies bound for Iran, 
and arms on their way to North Korea. European and America cooperation 
to help Kazakhstan safely dispose of large quantities of former Soviet 
military equipment would be helpful.
    Successive U.S. administrations have stressed to Russia that it has 
an interest in prosperous neighbors and stable borders in Southern 
Eurasia. Excepting the rebellion it fomented in Abkhazia in 1992-93, 
Russia has generally respected borders in Southern Eurasia. A decade 
ago many experts did not expect such restraint. President Putin seems 
to have decided that Russia has a large stake in its relationship with 
the West, and that intimidating poorer neighbors in Southern Eurasia is 
an unhelpful thaw on Russian energies and prestige. American and 
Western presence in the region helps Putin stabilize Russia's southern 
flank and enables Russia to focus attention on economic development and 
ties with more prosperous countries. Russian military and security 
elements have different views, however, and the pendulum could swing 
back.
    Seven, increase programs to promote long-term change. A decade ago 
the United States had undue expectations for early reform in the former 
Soviet Union. Aid programs over-invested in trying to reform the 
statist and corrupt ways of Soviet-era mandarins. For example, with 
rare exception U.S. defense conversion programs were unsuccessful. U.S. 
aid programs under-invested in programs with a long-term payoff, such 
as education for young people. They are a receptive audience and the 
best hope for dramatic change in the future. They want more freedoms. 
Young people in their 30s were largely trained in Soviet-type 
environments, and their attitudes toward change and risk-taking differ 
from the attitudes of those who are younger. U.S. programs should focus 
on student-age youth.

  <bullet> The United States should bring far more students here for 
        education and training. Graduates of these programs offer the 
        best hope for building market democracies. A decade ago such an 
        investment seemed too expensive. Today, the alternative seems 
        more expensive.

  <bullet> Since most young people in Southern Eurasia will never get 
        to the West for education, America should enhance programs to 
        reach these students. Especially in rural areas, inadequate 
        resources have created an educational vacuum, including about 
        moderate Islamic traditions. Extremists may seek to fill 
        vacuums, as they did in Pakistan and Afghanistan. U.S. programs 
        should bring greater resources to rural educators.

  <bullet> Americans need to be educated more about Southern Eurasia 
        and its diverse peoples, cultures, geographies, and rivalries. 
        Few Americans--among them Martha Olcott, and Fred Starr and 
        Fiona Hill who testified in December--know much about these 
        matters. America's knowledge base is simply inadequate to 
        sustain its engagement in the region. This year the Smithsonian 
        Folklife Festival, which for the first time explores a region 
        outside the United States, celebrates the Silk Road and the 
        countries and cultures along the ancient trading route. I 
        encourage you to visit the exhibitions over the coming days and 
        talk with people whom America is helping.

    In conclusion, I believe that U.S. engagement in Southern Eurasia 
has been a remarkable success. The task now is to take engagement to a 
higher level and sustain it. The war against terrorism has brought home 
the importance of this distant region. In a world of global terrorism, 
drug trafficking, and proliferation of weapons of mass destruction, 
distant and remote places can be as strategic as neighboring and 
familiar ones.

    Senator Torricelli. Thank you, Ambassador.
    Ms. Olcott.

 STATEMENT OF MARTHA BRILL OLCOTT, SENIOR ASSOCIATE, CARNEGIE 
       ENDOWMENT FOR INTERNATIONAL PEACE, WASHINGTON, DC

    Ms. Olcott. Thank you. I'm going to start by saying I agree 
with virtually everything that has been said before me in 
testimony today but because of my orneriness, I am going to be 
much more pessimistic than those who have preceded me. I want 
to thank you in the beginning of my remarks for inviting me to 
testify today, it's truly an honor.
    I would argue--and I'm going to be very brief because of 
the interest of time and submit fuller remarks to the record--
that at the very time when U.S. interests tied it most closely 
to the states of the central Asia region, some of these states 
are becoming more internally driven, in most cases precisely 
because human rights and basic political freedoms have been 
trodden on over the past 10 years. Unfortunately, there's no 
easy fix for many of these problems, no easy fix available for 
either U.S. policymakers or for the leaders themselves. If 
changes don't occur soon, peace and security in the region 
could be at risk.
    Some have expressed hope that long-term cooperation with 
the United States will give these leaders more respect for 
human rights and for democratic political institutions. I agree 
with Ambassador Courtney that long-term policies can have real 
payoff in the next generation. But at the same time, I'm very 
pessimistic that the current situation gives us a long-term 
perspective without major dislocation in these states. 
Certainly in the short term and medium term, there is unlikely 
to be any major political redefinition in the region. Moreover, 
unless the United States finds a more effective means of 
leveraging these states, there could be some highly undesirable 
and even violent and at least unscheduled regime changes 
throughout the region.
    It would be far more preferable obviously, as Ambassador 
Courtney says, for us to successfully encourage some of these 
states to move toward early election, but I see little evidence 
of this in recent activities of the leaders of the regimes in 
this region to broaden political participation or to support 
democratic political institutions. If Presidents flee for their 
lives, or worse yet, lose them in an effort to prevent regime 
change, unpredictable forces could be unleashed in any of the 
countries of this region.
    This said, few leaders of the region seem interested in 
broadening the basis of participation in their society, and all 
but one, I would argue, seems unaware of the potential 
political risk that he is under.
    Let me turn very briefly to a tour of the region. I would 
argue that the situation throughout central Asia with regards 
to human rights has not improved significantly since September 
11, and in most places it has even deteriorated, as the point 
was made by the Deputy Assistant Secretary and Assistant 
Secretary earlier.
    In Uzbekistan there has been at least the beginning of a 
willingness of the regime to say some of the right things, 
talking about free and fair elections, promising some 
elimination or modifications, but Uzbekistan has such a long 
way to travel. The human rights situation there was truly 
abysmal prior to September 11. In Uzbekistan, I think the real 
test will be whether the regime will engage in meaningful 
economic reform, because these tentative steps toward 
modernization will be much too little much too late.
    Other states have also been willing to give renewed lip 
service to democratic goals. The process of democratization in 
Kazakhstan has slowed since September 11 and it was in deep 
retreat before that time. We've already heard about major 
political opposition figures who have been arrested in recent 
months, the attack on Kazakh media has been a really savage one 
in several cases.
    Unfortunately today, there are very few political leaders 
that the United States can exercise to effect these kinds of 
outcomes in the short run. The only potentially decisive levers 
would be to limit U.S. access to the Kazakh energy reserves and 
this is something we clearly don't want to do.
    One leader who has had virtually no interest in trying to 
please the United States or even a rhetorical level with regard 
to democratic reform is Turkmenistan's Niyazov. In the past 
decade Turkmenistan has experienced the strongest erosion of 
intellectual freedom and political freedom anywhere in the 
region. Quite literally, President Niyazov has succeeded in 
isolating virtually every member of the elite willing to show 
any creativity or independence of thought, and the situation 
has only grown worse in the past 6 months. The brain drain from 
this country is becoming irreversible, putting the ability of 
the Turkmens to effectively govern themselves in the post-
Niyazov world at real risk.
    And I would say that's true regardless of the degree of 
engagement by the United States which I certainly support 
bringing over young people to be educated, et cetera. It will 
be very difficult to get many of those people to return to 
Turkmenistan or if they do return, to be given positions of any 
sort of responsibility.
    I'm going to skip Tajikistan in the interest of time, 
because I too agree that the status quo there is relatively 
unchanged, and just highlight the fact that the increased drug 
trade through that country creates greater stress on that 
country's very fragile and early stage political institutions.
    I will make my closing remarks about Kyrgyzstan. The 
political fragility of Kyrgyzstan, where we have our largest 
military presence in the region, has become much more apparent 
in recent months. Demonstrations that are occurring in southern 
Kyrgyzstan have mounted steadily for the past several weeks, 
though they seem to be on hold at this point in time, but the 
Kyrgyz opposition could easily get another wave of energy 
before this summer is over.
    It is really unclear how the regime of President Akayev 
will be able to reestablish political trust. There is a new 
government, but it is not a coalition government. The United 
States has succeeded in pressuring President Akayev, and our 
ambassador there has succeeded in pressuring President Akayev 
on many small changes that were highlighted today that are very 
important, media, there was a new ruling today on freedom of 
assembly, possibly creating an ombudsman, but it's very 
unlikely whether these political changes will keep up with the 
sharply deteriorating political environment, and they don't 
speak to the major issues that have been posed by the Kyrgyz 
opposition, things that have in one case nothing to do with 
human rights, it's a treaty with China, the release of former 
Vice President Kulov, greater discipline of corrupt official, 
escorting the official family from economic life or removing or 
minimizing the influence of President Akayev's family on the 
economy.
    These are all things that the opposition talks about and 
all things that are not very likely to change in the near 
future and as long as these remain, pressure on the Kyrgyz 
Government will remain very very strong, and this I would argue 
makes it imperative that the United States do whatever possible 
to help President Akayev make good on his promise to hold free 
and fair Presidential elections in 2005 and to work with him 
quite aggressively right now to show signs of facilitating an 
orderly transfer of power in the hopes that this may well work 
to quell the opposition.
    A disorderly transition in Kyrgyzstan would really be very 
bad news for the whole region. It would certainly be an 
embarrassing situation for the United States to be forced to 
watch this regime be ousted if the regime itself does not 
become a supporter of pre-term elections. And certainly it 
would be unsettling to the United States to become a physical 
guarantor of an undemocratic regime in central Asia.
    This takes me to my concluding point, that U.S. human 
rights policy and democracy building strategy more generally in 
central Asia is unlikely to lead to any major change in the 
nature of our partner regimes in central Asia. Undemocratic 
regimes are deeply rooted throughout the region and always face 
difficult political succession. This does not mean that the 
United States should abandon its human rights policy. On the 
contrary, I would argue that we should spend more money on it 
and that we are moving in the right direction, but we should be 
cognizant if we do of the kinds of challenges and risks that 
await us in this part of the world.
    Thank you.
    [The prepared statement of Ms. Olcott follows:]

 Prepared Statement of Martha Brill Olcott, Senior Associate, Carnegie 
                   Endowment for International Peace

    Since the attacks of September 11, and the emergence of a U.S. 
security partnership with several of the states of the central Asian 
region, there has been lots of speculation about what this means for 
the prospects of democratic reform in all five of these countries.
    Now that there are US bases in Uzbekistan and Kyrgyzstan, and the 
possibility of facilities in at least two more countries, there is 
concern that the US and other Western nations may be more reluctant to 
hold the states of the region to democratic norms and that, given the 
political uncertainty it could occasion, holding them to these norms 
may not be in our best interest. After all, as it is sometimes crudely 
put, better to deal with the ``devil'' you know than the unknown one 
which might be lurking out there.
    Personally, I believe that this argument is very dangerous. In some 
cases, closer cooperation with the US is making these ``devils'' more 
willing to at least experiment with limited democratic reform, but in 
other parts of the region, the devils we know are becoming more rather 
than less recalcitrant political figures. This in turn seems likely to 
fuel and exacerbate the security risks that these states could pose to 
their neighbors in the future.
    The power-void and collapse of civil society that made Afghanistan 
an attractive environment for the al-Queda network took years to 
develop and helped fuel instability in neighboring states. Cleaning out 
the remains of the tenor network in Afghanistan gives the central Asian 
states a brighter future, but this action in itself does not eliminate 
or even substantially minimize the dangers that they confront from 
their own largely internally generated security risks.
    It is my deeply-rooted hope that we will continue to hold these 
states to these norms. This is the best way to advance U.S. national 
security interests, especially over the medium and long-term, and it is 
the best way for these states to secure their long-term survival.
    This author vehemently rejects the often argued position that the 
people of central Asia are somehow unfit to live in a democratic 
society, that they are unable to sustain democratic institutions 
because of their history or that it is too soon in their history of 
statehood to expect them to develop democratic norms. Ten years may be 
a short time in the life of a nation, but the rulers and the ruled seem 
to tell time in different ways. Most people need the hope that things 
will improve either in their lifetime or that of their children. Those 
born in the Soviet Union were raised on a diet of ``deferred 
gratification,'' and all independence seems to have brought is a new 
version of the old dietary staple. Those born later are likely to have 
even less patience.
    While independence may indefinitely benefit the ruling classes, 
over time, the masses are likely to see independence as something of a 
trick. For them, the only real difference in their lives is a change in 
psychological status, and the ephemeral benefits that it provides. But 
this perception of psychological empowerment is diminishing with time. 
Those who live in a country should feel some sort of stake in its 
future, or failing that, feel some hope for their own future or that of 
their children.
    Decolonization in central Asia is becoming increasingly more 
reminiscent of what occurred in parts of sub-Saharan Africa, where a 
number of states have spent the past forty years stepping backwards 
from the levels of development that characterized their country and its 
population at the time of independence or in the first decade after 
independence was achieved.
    It is fashionable for central Asian leaders to argue that it took 
over two hundred years for the US to develop its democratic form of 
government, that we must be more patient with them. It is true that 
every nation has to evolve democratic or participatory political 
institutions that are suited to their cultural and historical 
background, and that this is a slow and oft times messy process. 
However, these political systems must be based in large part on the 
prevailing democratic norms, and on a basic respect and observance of 
human rights.
    Now, more than ever before, we live in a global information era, 
and people throughout central Asia are able to tie into the political 
values of that global culture. Of course, people can be frightened into 
submission and if this generation of human rights activists in central 
Asia are decimated, either literally or figuratively, it will be that 
much harder to create stable secular societies in this part of the 
world, not to mention democratic ones.
    It is easy to find non-democratic or authoritarian episodes in the 
history of any people, and of course the histories of those living in 
central Asia are no exception. But it smacks of racism to argue that 
one people is more or less fit for democracy than another, and such an 
argument is usually a convenient one for those who do not wish to share 
power. The central Asian states could have had a pattern of political 
institutional development that was more like that of Russia and the 
other post-Soviet states (excepting the three in the Baltic region). 
After years of repression, even now, throughout central Asia a 
committed minority remains in place, eager to see democratic 
development move forward. Nowhere is this more true than in Kyrgyzstan, 
where the informal political organization movement is much more firmly 
entrenched and widely dispersed than anywhere else in the region. But 
developments in Turkmenistan over the past eight months make clear that 
no country should be written off. This is a lesson that we should have 
drawn from the relative success of power-sharing relationships in 
Tajikistan, which is now experiencing a degree of political and 
economic recovery after several years of civil war.
    The specter of the Tajik civil war continues to haunt central Asian 
leaders. The current level, or illusion, of political stability will 
prove to be short-lived if the rulers of the region do not take 
seriously the need to create safety valves in their societies such as 
political institutions at the national and/or at the local level that 
create opportunities for ordinary citizens to become political 
stakeholders. This is all the more necessary given that the process of 
economic reform has had very uneven effects across society. Many more 
people have been denied the sense of being economic stakeholders than 
those who have felt increasingly empowered.
    Even before the attacks of September 11, the leaders of the central 
Asian states all championed the cause of stability over that of 
democraticization or political reform. None of the country's have yet 
to hold a free and fair presidential election, although all but Niyazov 
of Turkmenistan have competed in ``contested'' elections.
    Over the past decade, much of the stated reason against political 
liberalization on the part of central Asia's leaders has been the risks 
posed by the region's religious revival, and the increased popularity 
of radical Islamic groups, which might be further empowered by a more 
open political process.
    Uzbek fears date from the time of the Tajik civil war, in the early 
1990s. These fears were compounded as the situation deteriorated in 
Afghanistan, which was a source of seditious ideas, arms and narcotics 
even before the Taliban took power and allowed al-Queda to establish a 
training ground for international terrorism. The disorder in 
Afghanistan complicated the process of state-building throughout 
central Asia. In general, Uzbek domestic and foreign policy was 
probably most shaped by the developments in Afghanistan, especially 
after the February 1999 bombings in Tashkent. The Uzbek government was 
determined that IMU (Islamic Movement of Uzbekistan) militants should 
never be able to enter their country at will and they recognized that 
the training that they were receiving in Afghanistan was transforming 
the nature of the Islamic threat confronting the regime. This further 
hardened the Uzbek government's determination to both delineate and 
defend its national boundaries (which were mined in some areas 
inhabited by Tajiks and Kyrgyz). The Kazakhs and Kyrgyz also began to 
better protect their borders (although they did not mine them).
    Not all of Uzbekistan's fears were imaginary. The threat from Juma 
Namangani and his IMU were real, although quite possibly exaggerated, 
as many have held that the February 1999 bombings would not have 
occurred without collusion of those close to Karimov himself Namangani 
may or may not have been killed in Afghanistan and the camps of the IMU 
were at least partially destroyed. However, all of central Asia's 
leaders are warning of the possibility of new IMU incursions and, 
should these occur, not only the regimes, but the cause of democratic 
reform will also be further imperiled.
    The Karimov regime has agreed in principle to support democratic 
reforms as part of the strategic partnership framework. While the US 
agreed to ``regard with grave concern any external threat to the 
security and territorial integrity of the republic of Uzbekistan,'' and 
promised the country ``dynamic military and military-technical 
cooperation,'' the Uzbek government made a lot of political promises. 
In the area of political relations, ``Uzbekistan reaffirmed its 
commitment to further intensify the democratic transformation of its 
society politically and economically.'' The United States will provide 
the Government of Uzbekistan assistance ``in implementing democratic 
reforms in priority areas such as building a strong and open civil 
society, establishing a genuine multi-party system and independence of 
the media, strengthening non-governmental structures and improving the 
judicial system.'' In the area of legal cooperation, the Uzbeks 
recognized ``the need to build in Uzbekistan a rule by law state and 
democratic society,'' and agreed to ``improve the legislative process, 
develop a law-based government system, further reform the judicial 
system and enhance the legal culture.'' \1\
---------------------------------------------------------------------------
    \1\ See http://www.state/gov/r/pa/prs/ps/2002/8736pf.htm for a copy 
of the complete test of the United States-Uzbekistan Declaration on the 
Strategic Partnership and Cooperation Framework.
---------------------------------------------------------------------------
    Most of these reforms remain for the future. The Uzbek government 
has made a lot of promises about what it will do at a later date, 
including the election of a bicameral legislature elected in 2004, but 
the President did extend his term to 2007 through the use of 
referendum. The government has promised to eliminate formal press 
censorship, has registered at least one previously banned human rights 
group, and has made other small symbolic steps showing the Uzbek 
government's commitment to introducing rule by law, including the 
prosecution of police officials for the use of excessive force in 
interrogating accused religious extremists.
    However, the Uzbek government's policy toward religion remains 
largely unchanged, and it has been behaving much like its Soviet 
predecessors, believing that it can dampen the fires of religious 
ferment by state regulation of religious practice. This has served to 
push extremist groups underground. Given Uzbekistan's current 
demographic and social situation, the potential for new recruits 
remains high.
    The government in Tashkent faces the challenge of educating, 
integrating and employing a new generation of Uzbeks--nearly forty 
percent of the population is under 14--and given how little economic 
reform has occurred in the country it really still is the government's 
challenge, as there is still only a tiny private sector to draw on for 
assistance. Today's Uzbek youth is generally poorer and sicker than 
their parents were. Although less well educated, they are far more 
knowledgeable about Islam and far better integrated into global Islamic 
networks. The same pattern is repeated everywhere in the region, except 
in Turkmenistan, where there is no shortage of poverty, but where the 
country's Islamic revival has proceeded in more traditional channels.
    The proceeds of central Asia's burgeoning drug trade, the source of 
which is being revitalized from the current harvest of poppies in 
Afghanistan, has help fund the perpetuation of militant Islamic groups 
that have been proliferating in Uzbekistan and throughout central Asia. 
The largest of these, the Hezb-ut Tahrir, call for believers to unite 
and return Islam to the purity of its founding through the creation of 
a new Caliphate. It is outlawed everywhere but Turkmenistan, where it 
seems to lack a significant presence (unlike the drug trade, which does 
have a significant presence and is said to be directly benefiting the 
leader of the state).
    Following massive arrests, adherents of the movement have gone 
underground in Uzbekistan, but their numbers are increasing in the 
border regions of Kazakhstan and Kyrgyzstan, particularly among 
unemployed youth who are paid to distribute the movement's religious 
tracts. These people are poised to return to Uzbekistan if any 
opportunity to do so appears.
    Throughout the region, groups like the Hezb-ut Tahrir are 
benefiting from the failure of all of these countries to create any 
real secular institutions for channeling opposition. The case of 
Turkmenistan is most extreme as the national authorities have been 
determined to carve out a model of political and economic development 
that is supposedly in keeping with national cultural specificity's and 
largely focuses on making a secular religion or cult around the person 
of the country's first president.
    Throughout the region, failures of state-building are creating 
future security risks. Unlike a few years ago, when the situation in 
Afghanistan could be blamed as a root source, the current crisis in 
political institution-building is very much a product of decisions made 
in the national capitals themselves. It would be a very large mistake 
on the part of the governments in the region to assume that the growing 
US security presence in the region will serve to shield them from the 
consequences of their decisions.
    The honeymoon period associated with independence is coming to an 
end and, comparatively speaking, it has also been a honeymoon period 
here. Notwithstanding the civil war in Tajikistan, the situation in 
central Asia has been far more peaceful over the past decade than many 
observers initially anticipated. However, as the region's leaders age 
and tire, the frustration of their politically isolated and, in some 
cases, increasingly impoverished populations seems sure to grow.
    Advocates of democracy building may be frustrated by some of the 
changes occurring in Russia or in Ukraine, but the situation there is 
quite positive in comparison to that found in central Asia. Governments 
in states like Kazakhstan and Kyrgyzstan which had initially given at 
least limited endorsement to the ideals of democratic reform are now 
sharply restricting the freedom of action of their citizens and are 
eliminating any meaningful role political opposition groups can play. 
As a result, many are growing more frustrated by the increasing social 
and economic inequalities that now characterize their societies and by 
the diminishing opportunities to express their dissatisfaction through 
legal channels in the existing political system.
    In recent months, we have seen signs of restiveness among the elite 
and masses in several central Asian countries. The situation in 
Turkmenistan is most noteworthy. There is little prospect of even 
symbolic change in Turkmenistan as long as Niyazov remains in office, 
something that is leading to the mobilization of the Turkmen elite. 
Like Stalin, Niyazov fears disloyalty on the part of his government and 
rotates state officials in and out of office with regularity. Moreover, 
when someone is let go, the full savagery of the President's power is 
unleashed on him.
    A good example of this is the campaign against Niyazov's former 
security chief, Muhammad Nazarov, dismissed in March 2002, and charged 
in May 2002 with ``premeditated murder, procurement of women, abuse of 
power, bribe-taking, illegal arrests, the manufacture and sale of 
counterfeit documents, seals, stamps and blank forms, embezzlement and 
the abuse of power,'' charges which collectively could get him 25 years 
in prison. Moreover, 22 men formerly under his charge also face 
prosecution. In March 2002, the head of the border guards, Major 
General Tirkish Tyrmyev, was also dismissed. In May 2002, the Turkmen 
Deputy Prime Minister in charge of the financial sector, Khudaiberdy 
Orazov, and the head of the central Bank, Seitbai Kandymov, were both 
dismissed. The latter faces a host of criminal charges, including that 
of ``immodesty,'' according to the country's official newspaper 
``Neitralnyi Turkmenistan'' (Neutral Turkmenistan). Niyazov also 
announced plans to increase the size of the national security service 
to some 5000 people in a reorganization that will both expand its reach 
and make the existing leadership more vulnerable to removal in rather 
Stalinesque ways.
    Turkmenistan's government has been almost inflexible on issues of 
political and economic reform. Moreover, those who formally break with 
Niyazov, like former foreign minister Boris Sheikhmuradov who resigned 
from his post as Turkmenistan's Ambassador to China in October 2001, 
have a price put on their head. Since going into opposition 
Sheikhmuradov has formed a political party, The Peoples Democratic 
Movement of Turkmenistan, which manages a very active opposition 
website. This opposition group seems to have much greater energy, and 
hence potential, than earlier opposition efforts in Turkmenistan. A 
small group of pro-democracy activists known as Azadliq (freedom) was 
organized during the Gorbachev reforms, and the United Turkmen 
Opposition, was formed in Russia by Turkmenistan's first Foreign 
Minister, Abdi Kuliev and former Oil and Natural Gas Minister Nazar 
Suyunov. While these two groups failed to gain support from 
Turkmenistan's ruling elite, Sheikhmuradov's movement now includes 
Turkmenistan's former ambassadors to Turkey and the United Arab 
Emirates, a former deputy prime minister, and the former number two man 
in Turkmenistan's embassy in the US.
    There have been disturbing developments in Kyrgyzstan as well. 
Although President Akayev promises that he will step down when his term 
expires, the range of acceptable political activity has been narrowing. 
The trial of a Kyrgyz legislator, Azimbek Beknezarov, led to peaceful 
demonstrations in his home town of Dzhellabad in March 2002, that were 
broken up by the police leaving seven dead. A month later, one of the 
demonstrators died of a stroke during a hunger-strike. The district 
administrator, Shermamat Osmonov, of the village where the 
demonstrations occurred, Aksu, was fired by President Akayev, almost 
immediately, despite repeated protestations by the State Secretary, 
Osmonakun Ibraimov, and the Minister of Interior, the newly appointed 
Temirbek Akmataliev, that the police opened fire in self-defense. As a 
result of international pressure, the police officers themselves now 
face prosecution. In what definitely has the feel of an official cover 
up, Beknazarov was arrested in January 2002 and charged with exceeding 
his official powers seven years before while he served as an 
investigator in the Toktogul regional prosecutor's office. Beknazarov, 
who was Chairman of the Jogorku Kenesh (parliament) committee on 
Judicial and Legal Affairs, had been a very vocal critic of the Akayev 
government's negotiated border with China, in which the Kyrgyz ceded 
125000 hectares of previously disputed territory to Chinese control, 
and had called for Akayev's impeachment. This treaty, and the fate of 
Beknazarov and the pro-Beknazarov demonstrators, has become a cause 
celebre in Kyrygzstan and has led to mounting numbers of demonstrators 
in southern Kyrgyzstan in particular, who gather daily to call for 
President Akayev's resignation. In May 2002, the Prime Minister 
resigned and in June a new government was named, but this itself has 
not led to an appreciable change in the political environment.
    Although there has been strong pressure from the various OSCE 
states on Kyrgyzstan to have President Akayev pardon or otherwise 
release his former Vice President, Feliks Kulov, now head of the Ar 
Narmys party, just the opposite has occurred. Kulov, whose family now 
lives in exile, was convicted in May 2002 of three separate charges of 
embezzlement, and sentenced to serve a new 10 year term, concurrent 
with his previous seven year sentence, for abuse of an official 
position. Kulov was also barred from holding office for 3 years 
following his release.
    The situation in Kyrgyzstan is probably the most disturbing, as it 
seems to have few easy solutions. The ideal would be for the US to work 
with the current Kyrgyz government to help it find ways to successfully 
increase public confidence, through the release of Kulov and the 
creation of a broader coalition, etc. If Akayev is able to get to the 
end of his term, there is a very good chance that the country will 
stage something which at least has some of the features of a free and 
fair election, providing an important example for the rest of the 
region.
    Hopefully, this would be a situation that would have some influence 
on both Kazakhstan's and Uzbekistan's rulers. Despite the fact that 
Kazakhstan's president, Nursultan Nazarbayev, has continued to provide 
strong rhetorical support for the need for democraticization in 
Kazakhstan, actions taken by Kazakhstan's president and the country's 
senior officials provide little evidence that the country's leaders 
intend to take seriously a commitment to democratic reform.
    A group of key reformers left the government in November and formed 
a political movement called Democratic Choice, in part over a spat with 
the president over the role played by one of his son-in-laws, Rakhat 
Aliyev. Aliyev himself was pushed out and lost a number of his 
holdings. His media holdings Karavan and Kazakh Commercial TV (both 
owned by Alma-media) were temporarily suspended and the chief editor of 
the former, Aleksandr Shukhov, has been brought in for questioning by 
the Almaty police.
    The Democratic Choice movement itself proved relatively shortlived 
as two of its organizers, Mukhtar Ablyazov and Gaklimzhan Shakiyenov, 
former Akim of Pavlodar Olbast, were arrested for various forms of 
malfeasance. Two other organizers, former first deputy Prime Minister 
Uraz Zhandosov and Alikhan Beymanov, created the ``Ak Zhol'' (White 
way) party, but it has yet to be demonstrated that this is a credible 
and independent opposition force.
    While these developments do not in and of themselves change the 
face of poliltical life in the region, they do show that the alliance 
with the US has done little to make the region's leaders feel compelled 
to introduce democratic reforms in their societies. Partly this is 
because they feel that they are largely able to get away with whatever 
behavior they want--that there will be neither internal nor external 
consequences. They might be right about the latter--the international 
community might quietly sit back and let these men do as they wish as 
the priorities of the US in particular currently lay elsewhere--but 
international inactivity is not synonymous with indefinite local 
acquiescence.
    Over the past several years, the region's leaders have begun to age 
and in some cases become noticeably physically frailer, but the pace of 
institutional development has slowed in key countries like Kazakhstan, 
Turkmenistan and Kyrgyzstan. As already noted, there are some hopeful 
signs in Kyrgyzstan, which if born out would have enormous impact on 
the entire region. President Askar Akayev has been signaling that he 
doesn't plan to press for further constitutional modifications to 
enable him to continue to run for reelection. However, the only way 
that Akayev can convince observers of his sincerity is to make 
determined steps to free up the political process and create new 
institutions for elite recruitment.
    Positive too are plans to turn ever more control in the country 
over to popularly elected local governments. This would have enormous 
benefit in Kyrgyzstan, creating new arenas of competition throughout 
the country and reducing the expectations of the central government. It 
too would serve as a model and potential spur to reforms throughout the 
region.
    At the same time, all in the region are watching with interest 
efforts by Azerbaijan's President Heydar Aliev to have his son, Ilham, 
designated as his heir. Many in Kyrgyzstan believe that President 
Akayev will also try to arrange a transfer of power to one of his 
children, especially if distant relative Nursultan Nazarbayev in 
Kazakhstan successfully pursues such a strategy. Akayev is rumored to 
be grooming his young son, Aidan, who was educated in the United 
States.
    Efforts to reinstate some sort of modern-day princely system are 
very dangerous. Over the past five years, central Asia's leaders have 
been honing their ``winner-take-all'' philosophy. But the societies 
that they rule are complex, filled with populations that are reluctant 
to accept a loss of the benefits that they are used to enjoying and 
former political and economic stakeholders who are used to being 
accommodated. Throughout central Asia, members of the elite from 
disfavored clans and families have been sitting by, waiting for the 
opportunity to grasp more economic and political power. As institutions 
to ensure a peaceful transfer of power do not exist, there is no 
foundation on which for them to rest their hopes.
    In the absence of a civil society, there are few secular political 
institutions around which opposition can coalesce. Islam, especially 
the mosque and the medresseh, is increasingly becoming a more 
attractive organizational center for ethnic Kyrgyz as well as ethnic 
Uzbeks, and it is very difficult to restrict popular access to it. As a 
result, the advocacy of Islamic goals can be useful for both the 
regime's supporters as well as for its detractors. Everything depends 
on the rules of the game and these are still in flux.
    The challenge posed by Islam remains particularly acute in 
Uzbekistan. Islam is particularly deeply rooted in many parts of the 
country, and the precedent of competition between Islamic 
fundamentalists, modernists, and Islamic conservatives is a well-
established one. All three traditions withstood the vicissitudes of 
Soviet rule. Some of today's radical groups even have their roots in an 
anti-Russian uprising that occurred in the Ferghana Valley in 1898 and 
a few of the leaders have even studied with a ``holy-man'' who 
witnessed the revolt as a young child, and who--much to Soviet 
displeasure--survived to a very old age. This revival easily reaches 
into Kyrgyzstan, through the Ferghana Valley. Throughout the region, 
governments mistakenly believe that religion can be managed by the 
state, as can the development of Islam, and that governments are 
competent enough to influence the social evolution of society.
    The central Asian elite, of course, is not formally against Islam, 
but is very wary of revivalist or fundamentalist Islam and people who 
are eager to live by ``the exact teachings of the book.'' What they 
want is to keep these republics as secular states and to prevent devout 
Muslims from forcing all of their co-religionists into public 
observance of the faith. Even in Kyrgyzstan, pressure on secular 
elements to conform to religious precepts is strong.
    The relationship of religion to mass belief is much more complex 
and interactive than the region's leaders credit it with being. Though 
the governments of central Asia are in no position to regulate the 
religious beliefs of the masses, they may exert their influence on 
social processes. But in trying to do so, these governments could 
inadvertently trigger social explosions.
    It is for this reason that central Asia's governments must once 
again broaden the political sphere available to most ordinary citizens 
to include a host of secular alternative. For without this, the country 
has no real safety valve to use to release social pressure.
    But political liberalization alone is not the answer. The region's 
social pressure cooker must be dealt with more directly as well, 
through programs that will effectively help alleviate the region's 
poverty, through nationally based economic projects, and an effort to 
capitalize on the potential of a central Asian regional market. 
Moreover, economic reform will create a new and more persistent group 
of claimants for the extension of rule of law into the political sphere 
as well and the kind of popular support base that is necessary for 
sustaining democratic political developments over the long haul.

    Senator Lugar [presiding]. Thank you both very much. Let me 
begin by picking up the point you made, Ambassador Courtney, 
about the Russian influence in these countries. Their approach 
has changed to a point of accommodation as a result of the war 
against terrorism. I understand that President Putin overruled 
the opposition of many officials in Russia who really did not 
want that degree of United States access to these countries, 
war on terrorism or not, but apparently persuaded the people in 
Russia that it would be in their interests. But it is clear 
this has been very recent, the thought that we would have these 
opportunities we're discussing today. These countries are not 
in our hemisphere; as a matter of fact, they are in what Russia 
would have viewed as its sphere of influence. But to what 
extent does that specter overhang the picture? In other words, 
is there a feel in these countries that despite the fact we've 
had a temporary interest in the region the United States may 
say we've settled what we came to do militarily in Afghanistan, 
we've trained an Afghan group of people to police the country, 
which was our objective, and now we must leave because you have 
other problems here.
    What happens to these five countries if such a shift should 
occur or even let us say the United States as a matter of fact 
said well, we do in fact have more interest there, more staying 
power, despite official opposition of our government to 
expanding the international security force outside of Kabul, 
and United States participation. We heard this in the hearing 
yesterday so it's fairly firm that we're going to move that 
way, but we might change our mind and say Afghanistan is 
important, its success is important, that might have an 
influence on the other countries in the region.
    Can you give us some flavor as to how these tilts might 
occur, because in the last year we have had a very big tilt, 
one which we and everybody, I suppose, questioned both staying 
power as well as the future of Russian cooperation as we have 
seen this past year?
    Ambassador Courtney. The Russian shift does seem to be 
sudden. Going back to the early Yeltsin era a decade ago, the 
reformers in Russia in Yeltsin's government were focused mainly 
on dealing with the West and moving their country toward the 
West, and a decision was made consciously, or de facto, to 
leave the CIS up to retrograde officials in the Yeltsin 
government. So by and large the reformers whose names that we 
know, Guydar, Chubias, Yavlensky, people like that, they were 
associated with dealing with CIS issues.
    Senator Lugar. That's a very important point which I don't 
think I've heard made publicly as often as it needs to be.
    Ambassador Courtney. It was a way for the Yeltsin regime to 
protect its rights plan by leaving less important matters but 
matters that were emotional to people who were from a more 
conservative bent. So the debate has been going on for a long 
time.
    The view that we expressed, the United States expressed a 
decade ago, from the very outset, Secretary Baker and President 
Bush, was that Russia had an interest in secure and stable and 
prosperous borders all the way around, was something that 
intellectually some of the leaders understood but they didn't 
seem to be able to internalize. I would like to think that over 
the last decade, more and more Russians have indeed 
internalized that and seen that they do have a greater stake in 
their own internal conditions, economic and political, and that 
means moving toward more open societies and more contacts with 
the West, and I think we're seeing some of that just today and 
yesterday in Canada in the discussions.
    As to what would happen if we pulled out of southern 
Eurasia, I think that would be destabilizing, in part because 
the countries of the area would wonder whether we were 
interested in them or interested in them only as a vehicle to 
serve some other interest, and as I indicated, there are so 
many potential security threats out there. For example, if a 
nuclear weapon gets stolen from a Russian nuclear facility, one 
possible way it would go out would be the least guarded border, 
which is the border with Kazakhstan, and go down to the south.
    Biological weapons activities out there, although 
tremendous accomplishments have been made with the reduction 
program to eliminate them but there are still, as you know, a 
host of military biological weapon systems in Russia and a lot 
of people hovering around, including organized crime groups, 
that would possibly be interested in one or another aspect of 
the weapons of mass destruction establishment.
    So we have a lot of very specific interests such as 
enhancement of border security so they can detect and 
interdict, so I think it's very important for the United States 
to remain and staying involved in Afghanistan, whether it is 
the ICAF in Kabul or some other way, the key is that the United 
States stay and finish the job and remain in southern Eurasia.
    How often in human history was a security vacuum created as 
large as was created when the Soviets pulled out of Afghanistan 
and then the Soviet Union collapsed? There's been a vacuum 
there for a decade. The United States has filled it, and again, 
probably remarkably in history, very few countries in the 
region seem to have objected, most everyone seems to like that. 
So this is clearly stabilizing and we should stay.
    Senator Lugar. Let me ask, let's say that the situation 
remains stable in the sense that we stay and there is not 
additional pressure coming from Russia on these states. There 
is the problem clearly in all of them if there is to be the 
sort of reform that we're talking about, the need for income, 
that is, not a vibrant economy, but at least some improvement. 
I had a good visit with the Foreign Minister of Tajikistan and 
I was impressed with the fact that there is very little money 
in the country, the per capita income is very small.
    Now in the case of Kazakhstan, with the energy resources 
there, see some revenue stream coming. It may or may not be 
productive for all the people, but nonetheless there is some 
stream there that is possible. What are the prospects for the 
other four countries? Can you outline any hope in terms of the 
revenue stream in the next decade, quite apart from next year?
    Ms. Olcott. I think there is some potential for a revenue 
scheme, particularly if the customs barriers that exist within 
the region are eliminated or are sharply reduced. The region 
that includes southern Russia as well as central Asia really 
could form a natural market for a whole host of job creating 
activities in textile industry and in food processing, and 
support by the United States and the international financial 
institutions of more rapid entrance of all these states to the 
WTO I think would help facilitate it.
    That requires Uzbekistan seeing through its currency 
reform. Certainly it would be nice if Turkmenistan had similar 
steps, but I think there is some prospect of job creation 
through regionally focused projects that are driven at the 
entrepreneur level rather than at the head of state level; the 
head of state level has had a more dismal success rate.
    Senator Lugar. That's an interesting point you're making. 
How severe are these barriers between these states, leaving 
aside between anybody else? Describe what the customs or the 
tariff business is between Kyrgyzstan, Tajikistan, Uzbekistan.
    Ms. Olcott. Kyrgyzstan is the only state that is a WTO 
member, and it has been very difficult for Kyrgyzstan to trade 
with Uzbekistan. The customs barriers, it depends upon the 
goods, what they are, and it has been even more difficult in 
some ways for Kyrgyzstan to reach its market in Russia across 
Kazakhstan. There have been a series of tariffs, especially on 
agricultural good, levied.
    In addition to the existence of these tariffs and there's 
great difficulty in Tajikistan and Uzbekistan, in addition to 
these kind of barriers, the corruption of moving goods is 
really problematic. It costs between $1,000 and $2,000 to move 
a truck across Kazakhstan.
    Senator Lugar. With customs officials, or where is the 
corruption?
    Ms. Olcott. The corruption is police officials, customs 
officials, you name it, it's there. And this is, I think, the 
single biggest thing that we could do for these states is in 
the next 5 years move toward working with them for much better 
management of trade. I think it would lead to a healthy cross-
fertilization of investment across the region. There is capital 
in some of these countries, and there's Russian capital as well 
that would come in and do some very healthy things.
    Senator Lugar. That's a very significant point that I have 
not heard explored before. We have not really thought of trade 
among the countries. We keep thinking of each in isolation. We 
discuss individual governments and their contributions 
security-wise or reliability human rights wise, but this seems 
to be unrealistic, people move. We've talked about nuclear 
material moving, but likewise we must discuss trade, food and 
material. As you point out there are all sorts of barriers and 
corruption. Tariffs are high, obstruction to access in the 
Russian market. There are a number of factors here which in 
terms of our state craft really need to be considered more 
heavily.
    Ms. Olcott. I agree. We have to remember that the 
overwhelming majority of the population of these countries is 
under 21 and in every case except Kazakhstan, over a third are 
under 14. That means that we have to look at government revenue 
bases but we also have to look at opportunities of employment, 
of how families have life, because we don't want a new 
generation of terrorists to be born.
    Senator Lugar. Let me just followup with two questions on 
that point. You mentioned the desirability of exchange programs 
in which young people might come from these countries to the 
United States. But you say it's not very clear how they get 
out, and second, do they ever return. And that's rather bleak 
to say the least. We haven't done enough in this area, and I 
fear with a number of exchange programs, it's really getting 
off the mark.
    Try to help me. If you were to have the money to do so, how 
extensively would you begin to try exchange programs? How many 
students would be candidates for entry into American 
universities? Or stretch it the other way, how many American 
students might want to go to any of these countries? Do you 
have any feel as an academic in this area?
    Ms. Olcott. I don't have a feel for how many Americans 
would want to go there to study, but there are at this point 
thousands if not tens of thousands each year that would come 
from central Asia. One of the things that I think we have to be 
careful of in stimulating exchange programs is not to forget 
the need to help support educational reform on the ground, 
because it's going to get harder and harder for rural youth to 
have access to these exchange programs regardless of how many 
slots we make available to them, because the differential 
between elite education and mass education is growing 
throughout these regions.
    So, exchange programs are great, but more work on the 
ground with educational reform working with these states, with 
programs like the Peace Corps, and more directly target 
educational projects, I think are equally, if not more 
important for the longer term trends.
    Senator Lugar. How important is our public diplomacy 
efforts? In the State Department we had testimony a couple 
weeks ago of five different programs of various areas. When you 
talk about focusing on young people, this is what our public 
diplomacy is aimed at. Charlotte Beers and other people came to 
say that they are broadcasting messages, usually through the 
broadcast of American music, with 5-minute newscasts and other 
informational efforts in the midst of the program. This is a 
new tactic as opposed to the Voice of America or more 
conventional broadcasting that we have done in the past. And it 
seems to have caught the favor of people who are say from 15 to 
25 years of age.
    Now, I am not acquainted with how much of that may be 
occurring in any of the five countries we're considering today 
or how much should be focused there. These states do have a 
majority of young people and there probably are some messages 
of either hope or information, that we should be sending. Do 
you have any impression about what we should do in terms of 
public diplomacy?
    Ms. Olcott. I think one of the problems these regimes face, 
especially in rural areas, is the declining numbers of 
functioning TV sets and radios, so it's getting harder and 
harder to get to some more distant areas. I think the most 
valuable thing we do in media is training independent 
journalists. That is not to speak against public diplomacy or 
the radios that we support, but I see the greatest long-term 
payoff to us by working with independent media.
    Similarly with regard to public diplomacy programs, I think 
the longer term exchanges and training programs are really 
valuable, and I really advocate doing them with government 
people and not just with the nongovernmental sector. We have to 
increase the confidence of the generation that's already in 
positions of responsibility, even if we don't really like their 
views on a lot of questions.
    Senator Lugar. Ambassador Courtney, when you were 
Ambassador to Kazakhstan, how did you work with the State 
Department on public diplomacy? How did you try to express 
American ideals and morals to all the sectors of society?
    Ambassador Courtney. Most Ambassadors discover when they go 
to post that the public diplomacy section is the most important 
in the embassy. In Kazakhstan the country was by and large a 
joint military test range in the Soviet era, they had very few 
contacts with the outside world. When the United States came in 
and opened up the embassy just weeks after Gorbachev signed the 
dissolution of the Soviet Union, the Kazakhstanis welcomed us 
with open arms.
    They very quickly saw America as a protector against a 
larger set of neighbors or unstable neighbors, and were very 
receptive to public diplomacy programming, and that included 
Radio Liberty, Voice of America, the journalist training 
efforts that we did, all forms. There was an independent 
newspaper started in Kazakhstan, which suffered a $1 million 
fire when I was there, at one of its major newsprint 
warehouses. A similar fire has occurred at another independent 
newspaper more recently in Kazakhstan. That says something 
about how leaders who are less than democratic see the power of 
the media. So I would agree very much with Ms. Olcott that this 
is an area in which we should concentrate a great deal of 
resources and more resources.
    Senator Lugar. I'm just trying to think with you. Given our 
exhortations for leaders to reform and so forth, in fact it's 
the constituency of people, the base population in these 
countries that want changes. Now that may not mean they get 
them, but it's difficult to see a greater appreciation or 
yearning for democracy without sharing views of the benefits. 
That's why it seems to me speaking through public diplomacy a 
fairly large number of people eventually receive the message. 
This is extremely important for the future.
    Ms. Olcott. I think we should also not minimize the size of 
the constituency for change in any of these countries. If we 
listen to the leaders, we really have a vision of the 
populations as being rooted in the past and not really 
understanding what participatory societies are about. The 
tragedy is that all these countries were more participatory in 
1991, 1992 and 1993 than they are today, and that's what we 
suffer as our risk in these societies.
    Senator Lugar. Why is that so? Why has 10 years made a 
difference to the worse?
    Ms. Olcott. Because the regimes in power virtually 
everywhere have reduced the sphere of political life. The media 
is less free in most of central Asia than it was at the time 
that independence was granted. Parliaments have less political 
power today than they did in the early 1990s. Presidents are 
much more powerful figures than they were in the early 1990s. 
The judiciary was not independent then and it is making some 
strides in some places.
    But what we stand to lose, and we have lost a lot of that 
momentum from the late Gorbachev period and the early period of 
independence, and what we risk is a generation that has never 
seen that political dynamism coming to maturity without the 
conditions of it ever being instituted. That triggers the kind 
of radicalism that we see in parts of the Islam world and we 
see in parts of central Asia.
    Senator Lugar. What other countries are likely to help us 
in this endeavor? Do you see coming on the horizon some 
increase in, say, the interest of NATO nations or the European 
Union or Australia? Are there others who might have an 
influence toward democratic governance.
    Ms. Olcott. Europeans are very active throughout central 
Asia. The Germans are particularly active in Kazakhstan, 
Kyrgyzstan. The French are visible virtually everywhere.
    Senator Lugar. Why are they active? What interests do they 
have?
    Ms. Olcott. The Germans had an interest in keeping the 
German population from emigrating to Germany. There was a 
historic German population in Kazakhstan, about 6 or 7 percent 
of the population containing German ethnicity, and they were 
given the right to be repatriated under Soviet rule, and the 
German Government after reunification tried to dampen that by 
encouraging investment programs in Kazakhstan that were geared 
toward getting these people to stay by giving them a greater 
role in the economy. So they have a traditional interest in 
both Kazakhstan and Kyrgyzstan.
    But the European, the French and Italian oil companies are 
really active throughout the Caspian. The Japanese have had 
periods of great interest in central Asia and that interest I 
think could be revived.
    Ambassador Courtney. The issue of the expansion of the 
European Union throughout much of the 1990s caused a certain 
paralysis in Western Europe about how actively they should get 
involved to the east. In Georgia, for example, which is closer 
to Europeans in several ways, the Europeans made a significant 
investment in energy, but it tailed off as we went further 
east.
    I think the Europeans have come a long way since then and 
after 9-11, they realize that to a greater extent they should 
be there with us, but we should always remember that these 
challenges for the Europeans are always going to be something 
that will require U.S. encouragement to get them involved.
    I understand that something like 90 percent of the heroin 
in Britain comes from Afghanistan and half of that may come 
through central Asia, so concrete specific interests are 
playing a role as well.
    Senator Lugar. Recently we've had visits in Washington from 
NATO ambassadors and Lord Robertson. I had a long discussion 
last Thursday with them about NATO's future in this area. This 
is purely out of area, but the war on terrorism is out of area, 
by definition. Some NATO nations are prepared to work for us in 
a fairly long-term way when it comes to fighting this war 
against terrorism. Others are feeling their way along in this, 
they are not really sure how long, how far, they are willing to 
go. Some would prefer to hunker down back on the European 
Continent, as opposed to addressing the threats that may come 
to all of us, including them.
    But to the extent they do begin to look at this, then they 
might take a look at the drug trade and see this is a greater 
part of the situation, and I see possibilities of an extension 
of European interests the same as our own. The pessimists would 
say only for a short time, you know, there will come a time 
when work in Afghanistan, is done.
    But then we heard from Mr. Wolfowitz and Mr. Armitage here 
in this subcommittee that it's not just Afghanistan, it's 
Pakistan. This is very, very critical. That's another fact we 
haven't talked about today, but it's certainly in the area, a 
source of considerable interest in our diplomacy, both for 
security purposes as well as commitments. There are other 
reasons for staying in the area that may lead to greater 
longevity for us and for the Europeans. But we're breaking new 
ground.
    As you pointed out, prior to September 11, the degree of 
interest in all of this was unfortunately minimal. Now it's 
substantially greater. Let me just ask one more question along 
this line. For American business, obviously we're aware of the 
extraordinary energy interest in Kazakhstan. What sort of other 
activity is occurring in other industries, or what might be 
encouraged? What is logical in terms of American business 
investment? Frequently that is a point of leverage and a point 
of democratization in its own way, as people come and go with 
the flow of commerce. Do either one of you have any idea as to 
what the openings might be in that area?
    Ambassador Courtney. In addition to energy, and to go back 
to your earlier question about income in the countries, if one 
takes a look at Kazakhstan, Turkmenistan and Azerbaijan, the 
three countries that have substantial energy income in the 
region, and the income distribution of that impact in terms of 
how much of that income reaches down to the poorer people, the 
issue is that broad based economic growth and investment is 
required there, and it has to be done under circumstances that 
are less corrupt. Corruption is probably the No. 1 issue that 
harms economic development in the region.
    The second part of it really has to go to agriculture. If 
you look at every single one of those societies, agriculture 
including husbandry, they all have comparative advantages from 
the economic perspective in those areas, but in none of those 
countries are people able to buy and sell land freely or to use 
it as collateral to obtain a mortgage so that a farm credit 
activity can get going. And we know from our own history in 
America that without being able to collateralize land, you just 
can't have strong agricultural credit. If I could pick one 
single thing that the United States business could do beyond 
energy, it would be the focus in the agricultural sector, and 
that would cover all aspects of that, including food 
processing. But that requires the opportunity for 
collateralization.
    Senator Lugar. This is another legacy from the Soviet 
period. We just saw the Duma take some preliminary steps to 
permit the sale of lands to Russians within Russia. This is a 
big step even 10 years after the fall of the Soviet Union.
    Ms. Olcott. Kyrgyzstan actually does allow private land 
ownership and this year they are beginning to allow some 
collateralization with U.S. assistance. But I agree, I think 
agricultural reform is really a key to survival of societies, 
and also, agricultural equipment sales is really one area of 
potential U.S. engagement. The mineral extraction sector, 
Uzbekistan, one of its biggest projects is mineral mining, you 
know, working in the gold sector. Service providers throughout 
the mining sector may have a market there, but it's very 
difficult to get the kind of return on capital from these 
small- and medium-size enterprises that U.S. firms are used to, 
and the kind of management time that has to be invested there 
is really enormous. So except for the big projects, I think 
it's going to be hard to encourage too much U.S. participation.
    Senator Lugar. Especially with the customs problems, the 
difficulty in getting across borders. For example in Eastern 
Europe, discussion would focus on the Czech Republic or 
Slovakia. They were small markets but they were profitable. 
American companies could produce steel in Slovakia and export 
it to several surrounding countries. But that gets back to an 
earlier point that you made, that the market has to be 
enlarged. It is enlarged by barriers coming down and access to 
Russia as a very large potential customer in the area should be 
encouraged.
    Ms. Olcott. And we can help them more through technological 
training than through investment, and what we should be more 
interested in is facilitating economic stability.
    Senator Lugar. I thank both of you. I'm hopeful that the 
record of our hearing will be helpful to other colleagues, 
likewise to our administration and to others in the NGOs who 
are working these problems intensively, as both of you have 
throughout much of your career.
    Let me ask on behalf of the chairman that we have unanimous 
consent, which I will give being the surviving Senator here, to 
keep the record open until the close of business tomorrow, and 
this for the benefit of those who have additional comments as 
witnesses or Senators who wish to raise questions, issue 
statements or what have you. Thank you very very much for being 
with us today, and the hearing is adjourned.
    [Whereupon, at 4:50 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


             Additional Statement Submitted for the Record


              Prepared Statement of Senator Sam Brownback

    I would like to first address the title of this hearing to clear up 
any misunderstandings. ``Balancing Military Assistance and Support for 
Human Rights'' makes it sound like there is a choice to be made between 
the two. Nothing could be further from the truth. Military assistance 
takes many forms. Training of soldiers requires human rights vetting. 
Human rights training and democracy programs are conducted concurrently 
with train and equip programs. Through various engagement activities, 
our military is assisting in the development of democracy throughout 
the world.
    Balancing human rights concerns with strategic and economic 
concerns is always a difficult task--and a subject worthy of inquiry. 
Central Asia is comprised of a set of new nations--barely over a decade 
old, which are dealing with a number of difficult issues. These nations 
are the first to admit that there remains work to be done in the area 
of human rights--just as our own nation did not have a perfect human 
rights record for many years after our creation. The task of building a 
new nation from scratch is difficult enough, but when you are 
transforming from a system that did not respect the rights of 
individuals, did not place a premium on human rights and in fact, 
inherited a tradition of political repression--as these post-Soviet 
nations did, the challenge is all the greater.
    This does not mean we should refrain from examining this important 
topic, but we should take note of the fact that many of these nations 
have made conscious choices to move toward the West, toward democracy 
and away from the radical extremist elements we see in a number of 
other countries.
    Which brings me to a critical point: we should be examining this 
important topic with a broader lens. What about human rights issues in 
Saudi Arabia and Egypt? These too are alliances that we have had for 
various strategic reasons--but we have shied away from critically 
reviewing. These countries certainly deserve as much scrutiny as 
central Asia--we send them more aid or sell them more weapons, we have 
had longer relationships with these countries--and by all rights, the 
abuses in these countries, at least the descriptions I have seen, are 
significantly worse than central Asia--particularly for women.
    If we are to examine this important topic with the depth it 
deserves, we should make sure that we do not cast our focus too narrow. 
I realize that this subcommittee is tailored to central Asia--but if we 
are to have a hearing on this important topic, then I hope we will also 
have the opportunity at the full committee level, to delve into the 
concerns about human rights abuses in with our other allies. For that 
matter, we should also be scrutinizing the axis of evil: Iran, Iraq and 
North Korea--where human rights are all but an unknown concept.
    I hope this will be a balanced hearing. In light of the great 
cooperation we have received from central Asia post 9/11, it would not 
serve us well to treat our new friends unfairly.

                              ----------                              


       Responses to Additional Questions Submitted for the Record


    Responses of Assistant Secretary Lorne W. Craner to Additional 
   Questions for the Record Submitted by Senator Robert G. Torricelli

    Question. Secretary Craner, I want to raise with you a case you are 
familiar with involving a constituent of mine from New Jersey, Mr. 
Mansur Maqsudi. As you know, last July, Mr. Maqsudi decided after 
roughtly ten years of marriage to seek a divorce from his wife, Gulnora 
Karimova, the daughter of President Karimov. Since then, the Uzbek 
government has imprisoned and mistreated a number of Mr. Maqsudi's 
relatives, expropriated without any compensation his business in 
Tashkent, and deprived him of having any communication with his two 
children; now ages nine and four. In March of this year, you publicly 
promised the chair of the House International Subcommittee on Human 
Rights, Ileana Ros-Lehtinen, that you would personally raise this issue 
at the highest level with the government of Uzbekistan. Recently you 
were in Tashkent and I would like you to describe concretely to the 
subcommittee what you have done to help Mr. Maqsudi, an American 
citizen, in freeing his three relatives who are still in jail, all of 
whom have serious health problems and have committed no crime other 
than being related to Mr. Maqsudi, and in helping to make sure that Mr. 
Maqsudi is not unlawfully deprived of his right to be in touch with his 
children, who are also U.S. citizens.

    Answer. I appreciate your attention to and share your concern on 
this very difficult issue.
    Since my March testimony, when Rep. Ros-Lehtinen asked for and 
received my assurance ``that this issue will be raised at the highest 
level with the government of Uzbekistan'', I have worked to ensure that 
the case was receiving such attention here at the State Department.
    Ambassador John Herbst has raised the issue repeatedly with the 
highest levels of the Uzbek government. Beth Jones, our Assistant 
Secretary for European Affairs, on a number of occasions has also 
conveyed our views on this issue to the highest Uzbek officials here 
and in Tashkent. Officials of the Bureau of Consular Affairs in 
Uzbekistan and Washington, who have the primary responsibility on the 
portion of the case involving the children and one parent who are 
American citizens, also continue to pursue it. We have also pushed the 
Government of Uzbekistan, again at the highest levels, to respect the 
rule of law and to provide the Uzbek relatives who are not American 
citizens access to their lawyers and their family members. Secretary of 
State Powell and I have repeatedly emphasized to the highest levels of 
the Uzbek government, here and in Tashkent, that respect for citizens' 
individual liberties, the rule of law in Uzbekistan and international 
law are a precursor for deepening and broadening the relationship 
between our two countries. As we have made clear to the Uzbeks from the 
attention we have devoted to it and the levels at which we have raised 
it, resolution of this case would send a strong signal of movement in 
this direction.
    On May 3, 2002, after Ambassador Herbst had met with the Uzbek 
foreign minister and negotiated with Mr. Maqsudi's estranged wife, a 
U.S. consular officer received her consent to visit with her children. 
Our consular officials for many months had been trying to arrange such 
a meeting to determine the children's well-being. The results of this 
visit, subsequently reported to the Maqsudi family, were that the 
children are healthy and receiving much attention and care. We 
understand the families themselves are attempting to resolve the issue 
of family visits. We also recently requested information, through our 
Embassy, on the health of the imprisoned relatives and to confirm that 
they are able to receive needed medications even as we continue to 
press the government of Uzbekistan to treat them in accordance with 
international law.
                                 ______
                                 

    Responses of Assistant Secretary Lorne W. Craner to Additional 
       Questions for the Record Submitted by Senator Gordon Smith

    Question. Assistant Secretary for European and Eurasian Affairs 
Beth Jones has been clear that in central Asia the administration is 
placing equal emphasis on issues of military cooperation and the 
promotion of democracy and human rights. However, in your testimony you 
state that ``any deepening and broadening of our cooperation will 
depend on continual progress in respecting human rights and 
democracy.'' Are you suggesting placing conditions on our assistance to 
these central Asian republics?

    Answer. Senator Smith, thank you for a question that addresses an 
important issue of U.S. foreign policy. Since September 11 I have taken 
two trips to central Asia and have met with many officials from the 
region here in Washington, D.C. My message to government authorities 
and to the people of the region has been consistent--that in order to 
receive the continuing support of the American people, who above all 
value respect for human rights and democratic institutions, the 
governments of central Asia will have to demonstrate in concrete 
measures their commitment to democracy and human rights. This is a 
message that has been conveyed by all U.S. government authorities.
    The governments of central Asia are at a critical juncture in their 
relations with us. If they want to go further and broaden their 
cooperation with us beyond security matters, they will need to 
institute political reforms, otherwise our relations will not be able 
to progress and instead will remain limited in their scope.
    DRL's assistance via the Human Rights and Democracy Fund (HRDF) 
will continue to remain focused on targeted opportunities where we can 
make a difference through innovative programs. We will continue our 
support for civil society, including human rights activists, NGO 
leaders, independent journalists and other democratic forces, to enable 
them to hold their governments accountable and advocate for peaceful 
change.

    Question. Deputy Assistant Secretary Pascoe suggests that to bring 
democracy to central Asia ``may require generational change.'' How 
much, and what percentage of the total of your HRDF is directed towards 
this audience?

    Answer. I agree with Deputy Assistant Secretary Pascoe that a full 
transition to democracy in central Asia with the consolidation of 
democratic institutions is a long-term proposition. However, with the 
exception of Turkmenistan, there are strong, viable democratic forces 
in the central Asian countries and these forces are deserving of our 
support. We believe it is important in the short, medium and long term 
to encourage democratic opposition and human rights activists in their 
courageous battle to bring about peaceful change.
    In terms of funding programs with DRL's Human Rights and Democracy 
Fund (HRDF), allow me to clarify what HRDF is, and is not, about. In my 
confirmation hearings for Assistant Secretary I pledged to reform HRDF, 
and in particular, to make it a fund that distinguished itself as a 
resource for cutting-edge programming. I am happy to report that I have 
done so; HRDF funds are reserved for targeted, innovative projects that 
will have a direct impact in countries of U.S. foreign policy 
significance.
    Using these new criteria, I am pleased to note that we have indeed 
allocated a substantial portion of HRDF to $3,045,000 (23% of total) 
for democracy and human rights programs in central Asia and for fiscal 
year 2002 we have notified to Congress $1,996,000 for central Asia, 
which represents 33% of the $6 million earmark for Muslim countries.
    While all of our programs will ultimately effect a generational 
change, HRDF is not specifically designed for long-term programs. To 
achieve such generational change we work closely with our colleagues in 
the Department of State and USAID who are engaged in supporting 
complementary long-term exchanges and training programs. The programs 
most targeted at generational change are exchange programs administered 
by the Department's Bureau of Educational and Cultural Affairs (ECA). 
In FY 2002, ECA received approximately $19.25 million in FREEDOM 
Support Act funding to support academic and professional exchange 
programs for approximately 850 citizens from the central Asian 
countries. This number includes academic year or longer stays in the 
U.S. for approximately 260 central Asian high school students on the 
Future Leaders Exchange Program (FLEX), some 55 central Asian students 
on the FSA Undergraduate program, and some 68 central Asian graduate 
students on the FSA Graduate/Muskie program. ECA also supports 
approximately 30 open access internet sites throughout central Asia 
which are used heavily by young exchange program alumni to keep open 
ties to their U.S.mentors and host families, and to obtain access to 
information not otherwise available in their countries.

    Question. What is your view of working with the political parties 
in Tajikistan? As Tajikistan is the only country in the region with a 
vocal opposition in the Parliament will U.S. financed training be open 
to the Communist Party and the Islamic Renaissance Party (IRP)?

    Answer. During the past five years since the peace accord ending 
their brutal five-year civil war, the government of Tajikistan has 
taken soma steps to accommodate a political opposition. While the 
elections in 1999 and 2000 were indeed an improvement from civil war, 
they were neither free nor fair and electoral legislation is in need of 
reform, especially regarding party and candidate registration. Lack of 
war, however, is not democracy, and we would like to see Tajikistan's 
governing institutions continue to improve.
    While Tajikistan is indeed the only central Asian republic that has 
a government with an opposition party represented (and notably the only 
republic to permit political parties of a religious character--Islamic 
Renaissance Party), we would like to see more parties able to receive 
training and actively participate in government, especially those who 
are having difficulty registering. We commend the government's 
demonstrative commitment to establishing democratic institutions, and 
look forward to working with them as they continue to improve.
    DRL is currently not funding from HRDF any political party programs 
in Tajikistan. However, we would like to do so in the future as we view 
Tajikistan as a country with many opportunities to promote democracy 
and human rights. If we should fund political party building programs, 
they would be open to all democratic, reform-oriented political 
parties. Currently, USG assistance programs administered by USAID 
support the International Foundation for Election Systems (IFES) in 
providing technical assistance to the full range of democratic 
political parties, focusing on improved communication between 
headquarters and regional party branches and the development of 
membership recruitment strategies. The assistance also concentrates on 
women's political participation and has resulted in a protocol drawn up 
by political parties representing all sides of the political spectrum 
that expands the role of women and youth in their respective parties.
                                 ______
                                 

   Responses of Deputy Assistant Secretary Lynn Pascoe to Additional 
       Questions for the Record Submitted by Senator Gordon Smith

                             hizb-ut tahrir
    Question. The Hezb-ut Tahrir (HUT), the underground group that 
favors the creation of a new Caliphate is often mentioned as a point of 
concern by visitors from central Asia. Yet little is known about its 
strength, where its finances come from and what if any connections it 
has with terrorist organizations. What can you tell us about the Hezb-
ut Tahrir? Is it a threat to U.S. interests in the region? Is its 
repression by the governments of the region of concern?

    Answer. Unlike the Islamic Movement of Uzbekistan (IMU), Hizb ut-
Tahrir al-Islami (HT-The Islamic Liberation Party) is a transnational 
organization--with support among Muslims in Europe and an 
organizational base in London. It has urged the non-violent overthrow 
of governments across central Asia and the establishment of an Islamic 
caliphate throughout the Islamic world.
    HT was founded in the Middle East (reportedly Jordan or Saudi 
Arabia) in the 1950's. It promotes a utopian view of political Islam 
under which social problems like corruption and poverty would be 
eradicated by the application of sharia. Although HT has not been clear 
how this would be achieved, its idealistic vision has taken on 
increasing saliency because of the region's economic problems and 
social discontent. The organization uses a mixture of local history and 
socio-economic and political arguments, combined with calls for 
international religious solidarity to promote its cause against 
authorities.
    HT is organized in secretive five-member cells whose members later 
form their own groups or halkas. Only the leader of each halka has a 
connection to another halka. (This method has helped HT spread rapidly, 
reportedly doubling in size each year in certain parts of central 
Asia.) Public expression usually is conducted through leaflets. 
Recruitment generally is conducted through friends and family, 
mirroring traditional social constructs. Members often emphasize the 
``inner jihad'' or a psychological transformation as the impetus for 
joining the group.
    In central Asia, HT members are generally ethnic Uzbeks as HT 
focuses primarily on removing Uzbekistani President Karimov. 
Nevertheless, HT has been more active recently in recruiting in 
Kyrgyzstan and Tajikistan, perhaps due to repression of its members in 
Uzbekistan and these countries' sizeable Uzbek population. Outside 
Uzbekistan, HT's appeal has centered on discontent with Kyrgyz and 
Tajik government policies toward religious practices.
    Much of HT's appeal reportedly is based in its rejection of 
violence. This is probably especially attractive in areas that have 
suffered purported inter-ethnic violence such as the Ferghana Valley. 
HT's propaganda, however, remains virulently anti-Western and anti-
Semitic, and post-September 11 HT rhetorically has supported action 
against the ``infidel'' powers fighting in Afghanistan. Some of the 
attraction to HT is its forbidden nature, the opportunity it presents 
for the alienated to express discontent, and the historical tradition 
of expressing dissent through religion in the Ferghana Valley.
    It is unclear what the group's future plans are and researchers 
have noted conflict among some members about the efficacy of violence 
such as used by the IMU--with which many members sympathize. Indeed, 
differences over HT tactics--and perhaps its rejection of violence--
reportedly led to factions splitting off in 1997 and 1999.
    Overall, neither Hezb ut-Tahrir nor the IMU has extensive support 
in the region. The tri-border area encompassing the Ferghana appears to 
be the most fertile ground for HT, with some researchers estimating 
that up to 10 percent of the local population are supporters. Although 
the number of HT's recruits continues to increase, the vast majority of 
believers in the region do not necessarily share HT's radical program 
of politicization of Islam. Journalist interviews with recruits suggest 
the decision to join an extremist group--HT or otherwise--is driven by 
disappointments of the post-Soviet era rather than an attachment to 
radical Islam. Therefore, HT's focus on ending corruption and abuse by 
powerful rulers appeals to the more secular as well.
    Government response to HT growth varies in the four countries 
(Uzbekistan, Kyrgyzstan, Tajikistan, and, less so, Kazakhstan) in the 
region where HT is actively recruiting. The Karimov government has 
taken the hardest line, having arrested and reportedly tortured 
thousands of HT members, their friends and family--and others who are 
simply devout believers. Jailed HT members reportedly find fertile 
recruitment inside prisons. The Uzbekistani government's inability to 
differentiate between radical and moderate Islamic groups probably 
pushes more people to extremist groups.
    The Kyrgyz government is less strident in its dealings with HT. 
Jail terms for those convicted of ``anti-government behavior'' are 
relatively lenient at two to four years. Most members appear to be 
Uzbek and are concentrated in the Osh area--the site of extreme Kyrgyz-
Uzbek clashes during the late Soviet era. The government's treatment is 
likely intended to avoid a repeal of these clashes.
    Tajikistan has seen recruitment primarily in the heavily Uzbek-
populated north. The Rahmonov government's uneasy alliance with its 
Islamist opposition party (IRP) has translated into harsher treatment 
for HT members, who are sentenced to an average of 8-12 years for 
``anti-government activities.'' In fact, the IRP's decision to join the 
Tajik government--and its subsequent marginalization--has reportedly 
led to an increase in HT recruitment among Tajiks, although the IRP 
denies this.
    HT's presence in Kyrgyzstan and Tajikistan has led to regional 
tensions as well. The Karimov government has pressured both its 
neighbors to crack down on militant Islamic organizations it believes 
seek shelter in it weaker neighbors.
                    nato involvement in central asia
    Question. Lord Robertson went on to say ``Ask yourself whether the 
countries of central Asia would have been so ready, willing and able to 
offer the critical assistance that helped us bring down the Taliban 
without 10 years of cooperation with the United States and its allies 
in NATO's Partnership for Peace. These relations were critical. Now 
they are about to get an upgrade.'' Could you describe the growing 
relationship between NATO and central Asia?

    Answer. We are seeking to develop immediate and practical programs 
within the Partnership for Peace and Euro-Atlantic Partnership Council 
to further strengthen the relationship between NATO and central Asian 
partners.

  <bullet> We are encouraging more active central Asian participation 
        at NATO and will continue to support greater central Asian 
        involvement in the full spectrum of NATO Partner activities.
  <bullet> We will seek enhanced individually tailored Individual 
        Partnership Programs to assist central Asian states in priority 
        areas such as combating terrorism, drug trafficking and border 
        controls.
  <bullet> PfP enhanced efforts in central Asia will be aimed at 
        expanding central Asian familiarity with NATO's military 
        practices in the same way it has promoted understanding and 
        reform in central Europe.
  <bullet> We favor the creation within the framework of the EAPC of an 
        ad-hoc central Asian working group as a means of promoting 
        stability and combating terrorism.
  <bullet> Our ultimate goal is to do for central Asia and the Caucasus 
        in this decade what we did for Eastern Europe in the 1990s.
             central asian cooperation on wmd proliferation
    Question. NATO Secretary General Lord Robertson was in Washington 
last week. In discussing what NATO hopes to achieve at the Prague 
Summit in November he stated that NATO will ``take a decisive step 
forward in our relations with countries across Europe and into central 
Asia. The logic is clear. Meeting challenges such as terrorism and 
proliferation requires the broadest and deepest possible cooperation. 
What are the Governments of central Asia doing to help NATO and the 
United States with the threat posed by weapons of mass destruction 
(WMD)?

    Answer. The central Asian countries have been strong partners in 
the disposal and counterproliferation of WMD, and have engaged closely 
with the United States in a number of programs in this area. Some of 
the more prominent programs and/or areas of cooperation with the 
central Asian countries which were host to former-Soviet weapons 
programs (Kazakhstan/Uzbekistan) are:
    Material Protection, Control, and Accounting (MPC&A): The MPC&A 
program, managed by the National Nuclear Security Administration, is 
helping to secure weapons-useable are underway with key central Asian 
countries like Kazakhstan.
    Kazakhstan: Kazakhstan is the newest member of the Nuclear 
Suppliers Group. There they have made a commitment to apply export 
controls on nuclear and nuclear related equipment, materials, software, 
and technologies. Kazakhstan is also a State Party to the NPT.
    BN-350 Spent Fuel Disposition Program: The United States and 
Kazakhstan continue to work towards agreement on a U.S.-proposed 
approach for the safe and secure transport and long-term storage of BN-
350 spent nuclear fuel (weapons-grade plutonium) from Kazakhstan to 
Bailkal-1. Current joint efforts include a technical feasibility study 
of the U.S. dual-use cask approach and visits to the proposed Russian 
cask designer.
    There are additional efforts between the United States and 
Kazakhstan to decommission and decontaminate the BN-350 reactor and 
also ensure its safety in the meantime.
    Russia Fuel Return Program: The United States Government continues 
to work with Russia and the IAEA on a plan to repatriate to Russia 
civil HEU fuel from Soviet or Russian-supplied research reactors in 
approximately 16 countries, some of which are in central Asia.
    Uzbekistan: Under the Russia Fuel Return Program, the United States 
and Russia agreed that shipment of nuclear fuel from Uzbekistan back to 
Russia is a priority. Technical experts from Russia, the United States, 
and Uzbekistan continue discussions toward this goal.
    The United States and Uzbekistan have necessary agreements in place 
to allow for shipment of the nuclear material from the Tashkent 
reactors. (Specifically, the United States Government signed a 
Nonproliferation Agreement with Uzbekistan in March 2002 which included 
the necessary protections and provisions for such a shipment).
    Nuclear Safety: U.S. and Uzbek experts also are currently upgrading 
the reactor facility to permit the safe and secure loading of spent 
fuel.
    Central Asia and the United States also cooperate in the areas of 
redirecting former-weapons scientists and establishing/implementing 
effective export controls and border security.
                               kyrgyzstan
    Question. In Mr. Craner's testimony his characterization of the 
current situation in Kyrgyzstan appears to differ from that in your 
testimony. In Assistant Secretary Craner's testimony he states that 
``Kyrgyzstan is once again headed in the direction of greater 
democratization and respect for human rights.'' That the `The Kyrgyz 
authorities have taken steps to restore public confidence.'' While 
Ambassador Pascoe states that the situation in Kyrgyzstan has ``reached 
a crisis point this year.'' What is your view of recent events in 
Kyrgyzstan?

    Answer. I think Assistant Secretary Craner was correct when he used 
the words ``cautiously hopeful'' in his testimony to describe the 
current situation in Kyrgyzstan regarding progress towards democracy 
and human rights. He did so because Kyrgyzstan, despite some recent 
political unrest and the government's backsliding on commitments to 
fundamental freedoms like freedom of press and freedom of assembly, 
continues to have the most potential, largely because it has the most 
vibrant civil society in central Asia. During the first six months of 
this year, Kyrgyzstan suffered its most significant political crisis 
since independence ten years ago. Although calm currently prevails, 
dissatisfaction with the Government's handling of events remains 
widespread and many observers expect protests to resume in the fall. In 
order to advance national reconciliation, President Akayev has begun a 
constructive dialogue with the moderate opposition, the non-
governmental organization community, and the independent media.
    However, the Administration continues to press the Government of 
Kyrgyzstan to be more inclusive and transparent as well as to implement 
the recommendations made by the State Commission investigating the 
tragic events of March in which five unarmed protesters were killed. To 
assist Kyrgyzstan to make further progress with its reforms, we are 
expanding our engagement to alleviate growing poverty and stem 
extremism through job creation, to enhance democracy by promoting 
greater citizen involvement in civil society, an independent media with 
the establishment of an independent printing press, and accountable 
governance, to increase protections for basic human rights, and to 
eliminate corruption. Assistant Secretary Craner and I both agree that 
promotion of human rights and democracy remains a priority for U.S. 
foreign policy and that continual advancement is necessary for the full 
flowering of United States-Kyrgyz relations.
                                 ______
                                 

 Response of Assistant Secretary Lorne W. Craner and Deputy Assistant 
    Secretary Lynn Pascoe to an Additional Question for the Record 
                   Submitted by Senator Gordon Smith

            caspian basin and u.s. energy security caucasus
    Question. The Vice President's National Energy Strategy pointed to 
the importance of the exploration, development and transportation to 
market of Caspian energy. The importance of multiple pipelines was 
again referenced in the summit between President Bush and Russian 
President Putin last month in Moscow. How does central Asia and more 
specifically those central Asian Republics that are contiguous to the 
Caspian factor into our need for energy diversification? In light of 
difficulties with OPEC and instability in the Middle East has the 
Caspian basin become more important to U.S. energy security?

    Answer. Caspian oil--from central Asia and the Caucasus--is key to 
maintaining our strategy of diversification of energy sources to ensure 
U.S. energy security. The Caspian basin holds roughly 4% of the world's 
oil reserves, and is potentially a significant source of non-OPEC oil. 
In central Asia, Kazakhstan has the potential to be one of the five top 
exporters of oil in the world in fifteen years. This year's production 
will likely exceed 900,000 barrels a day, increasing to as much as 5 
million barrels per day in 2015, more than Kuwait or Iran. Turkmenistan 
has one of the world's largest deposits of natural gas--estimated at 
101 trillion cubic feet--and oil production of about 160,000 barrels a 
day. While Caspian resources will not render Middle East difficulties 
irrelevant, over the coming years the region's oil and gas producers 
will become much larger players on the world market.
    Our policy objective is to encourage production and export of 
energy resources in the region in the most efficient manner possible. 
We agree with the Congress that, multiple pipelines will be crucial to 
ensuring energy security. Our Caspian energy policy for multiple 
pipelines will help the countries in the region secure their economic 
and political sovereignty and is showing some real successes. The CPC 
pipeline opened and is shipping Kazakh oil from Tengiz to the Black 
Sea. We expect the construction phase of the Baku-Tbilisi-Ceyhan (BTC) 
oil pipeline to start next month, with a groundbreaking ceremony 
scheduled to take place in Baku, Azerbaijan, on September 18. The 
pipeline received final approval on August 1 by the participating 
companies and two new companies have been set up to manage the 
construction and financing. The Kazakhs are ready to start negotiations 
on sending future oil shipments into that line. The BTC pipeline will 
be a major step forward in shipping Caspian oil to global markets. 
Turkmenistan, Pakistan and Afghanistan are also working with the Asian 
Development Bank and World Bank to examine a trans-Afghan gas pipeline, 
but the economics will be difficult absent a market in India. We 
continue to urge Russian support of our multiple pipelines policy.
                                 ______
                                 

    Responses of Assistant Secretary Lorne W. Craner to Additional 
      Questions for the Record Submitted by Senator Sam Brownback

    Question. Watching the continuing violence and bloodshed between 
Israelis and Palestinians makes me wonder how Jews are treated in the 
Muslim states of central Asia, especially Kazakhstan, and how will the 
violence in the Middle East influence the future of these historic 
Jewish communities?

    Answer. Although we hear very few reports of anti-Semitic actions 
against Jews in central Asia by the general population, we monitor this 
issue closely and report on it in the Department's annual reports to 
Congress on religious freedom and human rights. Posts and visiting 
representatives from the Department regularly meet with members of the 
Jewish communities in each country. When we hear reports of acts of 
vandalism against cemeteries or of the distribution of anti-Semitic 
leaflets, we raise these concerns with appropriate government 
officials. There are reports of anti-Semitic pamphlets printed abroad 
being circulated by members of Hizb ut-Tahrir. In general, the 
governments of central Asia treat the Jewish communities with respect 
and appear responsive to any concerns we raise on their behalf.
    In Kazakhstan, the government donated land in 2002 for the 
construction of a synagogue in the new capital, Astana. Government 
officials attended a groundbreaking ceremony in May of 2002. A 
synagogue opened in September of 2001 in the city of Pavlodar, also on 
land the government had donated. Thus, even in a country where the 
Jewish population is well below one percent of the population, the 
Jewish community in Kazakhstan continues to remain vital.
    In Uzbekistan, there are more Jews than in any other central Asian 
country. Roughly 30,000 Ashkenazy and Bukharan remain concentrated in 
the bigger cities of Tashkent, Bukhara, and Samarkand. Almost 70,000 
emigrated to Israel or the U.S. since independence, largely because of 
bleak economic conditions. Those that remain are often the elderly who 
complain of not having enough younger members of the community to 
maintain Jewish cemeteries. There is no pattern of discrimination 
against Jews. Synagogues function openly; Hebrew education, Jewish 
cultural events, and the publication of a community newspaper take 
place undisturbed. Although the Hizb ut-Tahrir has circulated 
throughout the country anti-Semitic pamphlets, the government has 
confiscated them, arresting the Islamic extremists associated with the 
distribution when it can. Except for these extremist groups, there are 
amicable relations among the various religious communities. In October 
of 2000, there was a synagogue fire in Tashkent that authorities 
believe was arson. Authorities were quick to investigate, and the 
Jewish community indicated that it did not believe the attack was anti-
Semitic in nature. The Government of Uzbekistan maintains good 
relations with Israel.
    In Turkmenistan, the Jewish community is said to be under 1,000 
individuals, some descendants from families that came to the country 
from Ukraine during World War II, and some Bokharski Jews living near 
the border with Uzbekistan. There were no complaints received from 
these communities during the past year. There is no rabbi and synagogue 
in the country. The numbers continue to decrease as a result of 
emigration to Israel, Germany, and the U.S.
    In Tajikistan, Jews are less than 1 percent of the population, and 
there is only one registered Jewish religious organization. There were 
no complaints reported to our mission last year.
    In the Kyrgyz Republic there is one Jewish synagogue registered and 
a small Jewish congregation meets in Bishkek. In March 2002, members of 
the Jewish Cultural Society reported that they had heard calls for 
violence against Jews in Russian and Kyrgyz from a loudspeaker at a 
mosque in central Bishkek. According to the Israeli Embassy in Almaty, 
the Kyrgyz Government is investigating and will file a report.
    We do not expect the violence in the Middle East to impact very 
much on the Jewish communities in central Asia. There is little 
societal support for ethnic/religious violence, except where Muslims 
have converted to another religion, such as Christianity. The 
governments have not encouraged the distribution of anti-Semitic 
literature, and generally have paid close attention to those extremist 
elements that could represent harm to the Jewish community.
                                 ______
                                 

Responses of Assistant Secretary Lorne W. Craner and Ambassador B. Lynn 
Pascoe to Additional Questions for the Record Submitted by Senator Sam 
                               Brownback

    Question. Kazakhstan seems to be the leader in central Asia in 
terms of reforming its economy. As you know, the Commerce Department 
recently designated Kazakhstan as a market economy. Is the United 
States planning to ensure that economic reform spreads through the 
other nations of central Asia, which seem to be lagging behind?

    Answer. The United States Government supports a wide range of 
programs that directly promote market reform in all five of the central 
Asian states. A series of complimentary programs in economic, 
democratic and humanitarian assistance indirectly reinforce market 
reforms. A comprehensive listing can be found in the ``Annual Report on 
U.S. Government Assistance to and Cooperative Activities with Eurasia'' 
prepared by the Office of the Coordinator of U.S. Assistance to Europe 
and Eurasia. Illustrative examples of such activities follow.
    In Kazakhstan, our economic reform assistance helped the Government 
improve its business and investment legal and regulatory environment 
(key for accession to the WTO), strengthen the country's banking 
sector, and improve insurance, customs, mortgage, and private pension 
systems. USG training and technical assistance helped the Government of 
Kazakhstan to create a National Fund designed to shelter Kazakhstan's 
economy from the destabilizing effects of sharp fluctuations in 
international oil prices. Also with the help of U.S. assistance, 
Kazakhstan's banks adopted international standards such a system of 
deposit insurance.
    In 1998, Kyrgyzstan became the first country in the former Soviet 
Union to join the WTO, with considerable help from the United States. 
Kyrgyzstan is continuing to strengthen its market reforms and, with 
U.S. assistance, is establishing the most advanced institutional 
infrastructure for private land ownership in central Asia. U.S. aid is 
also helping the State Customs Inspectorate modernize and simplify 
customs procedures. This modernization will result in cost-savings, as 
computerization and selective inspection procedures based on specific 
risk parameters will expedite the customs clearance process and 
stimulate regional cross-border trade.
    The Government of Tajikistan is enthusiastic about on-going USG 
assisted banking and fiscal reform efforts. We plan to engage further 
with the Ministries of Economy, Finance and State Revenues, and the 
National Bank should our supplementary budgetary request be approved.
    We closely coordinate our assistance with other donors in 
Uzbekistan. The USG is preparing to provide macroeconomic technical 
assistance to the Government of Uzbekistan, provided the Uzbeks 
implement necessary economic reforms.
    We stand ready to provide economic reform assistance to the 
Government of Turkmenistan as soon as it demonstrates its commitment to 
reform. Until then, USG assistance will focus on security, health care 
reform, and the next generation of leaders through educational 
exchanges and civil society development.

                               <greek-d>

</pre></body></html>
